<html>
<title> - DIGGING UP THE FACTS: INSPECTING THE BIG DIG AND THE PERFORMANCE OF FEDERAL AND STATE GOVERNMENT IN PROVIDING OVERSIGHT OF FEDERAL FUNDS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





  DIGGING UP THE FACTS: INSPECTING THE BIG DIG AND THE PERFORMANCE OF 
  FEDERAL AND STATE GOVERNMENT IN PROVIDING OVERSIGHT OF FEDERAL FUNDS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2005

                               __________

                           Serial No. 109-29

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-590                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2005...................................     1
Statement of:
    Amorello, Matthew J., chairman, Massachusetts Turnpike 
      Authority; John MacDonald, chairman, board of control, 
      Bechtel/Parsons Brinckerhoff, accompanied by Morris Levy, 
      senior vice president, Parsons Brinckerhoff, Inc., and 
      Keith S. Sibley, P.E., program manager, Central Artery/
      Tunnel Project, Bechtel/Parsons Brinckerhoff; and George J. 
      Tamaro, partner, Mueser Rutledge Consulting Engineers......    70
        Amorello, Matthew J......................................    70
        MacDonald, John..........................................    80
        Tamaro, George J.........................................    94
    Gribbin, D.J., Chief Counsel, Federal Highway Administration, 
      accompanied by Stanley Gee, Administrator, Massachusetts 
      Division, Federal Highway Administration; Kenneth Mead, 
      Inspector General, U.S. Department of Transportation; and 
      Tom Reilly, attorney general, Commonwealth of Massachusetts    14
        Gribbin, D.J.............................................    14
        Mead, Kenneth............................................    22
        Reilly, Tom..............................................    44
Letters, statements, etc., submitted for the record by:
    Amorello, Matthew J., chairman, Massachusetts Turnpike 
      Authority, prepared statement of...........................    75
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Gribbin, D.J., Chief Counsel, Federal Highway Administration, 
      prepared statement of......................................    16
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     9
    MacDonald, John, chairman, board of control, Bechtel/Parsons 
      Brinckerhoff, prepared statement of........................    82
    Mead, Kenneth, Inspector General, U.S. Department of 
      Transportation, prepared statement of......................    26
    Reilly, Tom, attorney general, Commonwealth of Massachusetts, 
      prepared statement of......................................    46
    Tamaro, George J., partner, Mueser Rutledge Consulting 
      Engineers, prepared statement of...........................    96

 
  DIGGING UP THE FACTS: INSPECTING THE BIG DIG AND THE PERFORMANCE OF 
  FEDERAL AND STATE GOVERNMENT IN PROVIDING OVERSIGHT OF FEDERAL FUNDS

                              ----------                              


                         FRIDAY, APRIL 22, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m., in the En 
Banc Courtroom, Moakley Courthouse, Boston, MA, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, and Lynch.
    Also present: Representative Capuano.
    Staff present: Teresa Austin, chief clerk; Sarah D'Orsie, 
deputy clerk; Brian Stout, professional staff member; John 
Hunter, counsel; Drew Crockett, deputy director of 
communications; and Krista Boyd, minority counsel.
    Chairman Tom Davis. Good afternoon. A quorum being present, 
the committee will come to order. We are conducting this field 
hearing in Boston today to assess the status of the Central 
Tunnel/Artery Project, or the Big Dig, one of the largest and 
most expensive Federal highway projects in the history of the 
United States.
    My colleague and good friend and member of this committee, 
Congressman Stephen Lynch, requested that this congressional 
committee convene a hearing here in Boston to witness firsthand 
the steps being taken to address the outstanding concerns and 
issues in terms of safety and cost associated with the Big Dig.
    As this project nears completion, it is vital that we 
assess the lessons learned here in Boston and determine how to 
prevent such cost growth and improve oversight and coordination 
in the future. These are significant areas of concern to the 
Committee on Government Reform, and indeed to the entire 
Nation, as we seek solutions to increased urban congestion 
throughout the country.
    It is imperative for the Federal Government, which often 
pays 80 percent of the major highway projects, to play a role 
to ensure that taxpayer dollars, whether Federal or State, are 
being used effectively. In addition, the increase in the number 
of projects and the rapidly growing competition for both 
Federal and State funding demand that major transportation and 
infrastructure projects be managed efficiently and cost 
effectively, so we are able to fund the many needs we have 
across the Nation.
    It is for these important reasons that we decided to come 
to Boston today and hold this important hearing. I am pleased 
that Congressman Lynch is with us this morning, and I also want 
to welcome Congressman Capuano to this field hearing as well. 
And I would ask unanimous consent that he be allowed to sit 
here as a member of the committee and ask questions. And, Mike, 
we appreciate you being here as well.
    I don't need to remind anyone here about the traffic and 
related highway safety problems of the Central Artery in the 
1980's that led to the planning for this massive project. 
Preliminary designs began in the 1980's, and construction 
commenced in 1991.
    As with all State highway projects such as this, the 
Federal Highway Administration is responsible for protecting 
the Federal funding of this project. As part of the 
Metropolitan Highway System, the Massachusetts Turnpike 
Authority has given construction and operational authority for 
this project.
    The figures associated with the Big Dig are staggering. The 
nature and scope of the project, the time involved in planning 
and construction, and the cost overruns and safety concerns are 
unparalleled. What began in 1980 as a $2 billion project grew 
to $8 billion in 1995, and the Authority currently estimates 
the project cost to be $14.625 billion.
    Upon completion, scheduled for later this year, the project 
will encompass 7.8 miles of highway, with 161 lane miles of 
pavement, 3 interstate tunnels, over 200 bridge structures, and 
6 major interchanges. So it comes close to $2 billion a mile.
    While it is hard to imagine another federally funded 
project--public works project of this magnitude, there is a 
growing need nationwide to plan, build, and support major 
highway and infrastructure improvements. It is, therefore, 
vital for us to learn what happened here in Boston and 
implement procedures that will ensure against cost overruns of 
highway projects and assure the safety and confidence of the 
traveling public that utilizes those highways.
    Certain steps have already been undertaken as a result of 
the problems associated with the Big Dig. Congress now requires 
initial financial plans and annual updates to be submitted and 
approved by the U.S. Department of Transportation for all 
projects costing over $1 billion.
    These financial plans for the mega projects must identify 
project costs and financial resources to implement and complete 
the planned project. Annual updates must report actual cost and 
revenue performance in comparison to original estimates and 
revision of estimates.
    This process has been implemented. The Woodrow Wilson 
Bridge Project, which is the Potomac River crossing northern 
Virginia, which I represent, and Maryland. Right now that is on 
schedule and under budget.
    I hope that this hearing will give us an accurate picture 
of the current status of the Big Dig and the efforts to remedy 
the tunnel leaks, which has been learned from this mega 
highway--what else has been learned, and implementation of 
safeguards for other federally funded projects.
    Now, we have assembled an impressive group of witnesses 
today. We will hear from the Federal Highway Administration, 
the U.S. Department of Transportation Inspector General, the 
Commonwealth of Massachusetts, the attorney general of the 
Commonwealth of Massachusetts, the Massachusetts Turnpike 
Authority, the overall management consultant for the project 
hired by the Massachusetts Highway Department, and a safety 
engineer who evaluated the project.
    I want to thank our witnesses for appearing before the 
committee, and I look forward to their testimony.
    I now yield to Mr. Lynch.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1590.001
    
    [GRAPHIC] [TIFF OMITTED] T1590.002
    
    Mr. Lynch. Thank you, Mr. Chairman. First, I would like to 
begin by thanking you for convening this hearing, and also it 
was necessary for me to get the agreement of our ranking 
member, Henry Waxman, and I appreciate you coming here to 
Boston.
    This committee is the Committee on Government Reform. And 
as the name suggests, it is the continuing problems that we 
have encountered on the Central Artery/Tunnel Project that 
brings us here today. Very simply, this committee is charged 
with asking the tough questions, and using the powers that are 
afforded to this committee, and to the Congress, to determine 
where the shared responsibilities lie in completing and 
maintaining this project in a manner that meets the high 
standards that taxpayers and toll payers expect.
    In a national regulatory context, we also seek to ensure 
that the systemic problems that resulted in cost overruns are 
not allowed to happen again. There is frequent criticism of 
partisan bickering in Congress that sometimes hampers our work. 
And, in fairness, I must confess that sometimes that criticism 
is warranted and well deserved.
    However, I must say that my experience on this committee, 
under the leadership of Chairman Tom Davis, the gentleman from 
Virginia, has been a shining exception to that rule. In my 
brief tenure on the committee, we have conducted investigations 
of the Boston Office of the FBI and their involvement with 
organized crime, we continue to investigate the U.N.'s 
complicity in the Iraqi Oil for Food scandal, we are 
investigating contract irregularities with Halliburton in the 
Middle East, and most recently steroid abuse in Major League 
Baseball and professional sports.
    And through it all, I have seen Chairman Davis has 
personally gone to great lengths to maintain a level of 
fairness and to encourage the work of all members together, 
regardless of their political affiliation. So, again, my 
thanks.
    Chairman Tom Davis. Thank you. If you want to take more 
than your 5 minutes, you are doing real well. [Laughter.]
    Mr. Lynch. Well, he wrote this, so--[laughter]--not at all. 
Turning to the difficulties of the Central Artery Project, as 
somebody who literally grew up in the construction industry, I 
have taken a natural interest in this project. Let me state at 
the outset that I do not for a moment discount the colossal 
scale of this undertaking, which is, again, as the chairman has 
said, the largest and most complex construction project in the 
history of the United States.
    And also, I fully and personally appreciate the pride and 
skill of the men and women of the building trades who built it. 
I have enormous pride in them, and I am not questioning their 
work.
    And I am mindful, most of all, of the memories of workers 
who actually gave their lives on this project, men like John 
Hegarty, an old friend from Savin Hill, in the neighborhood, in 
the Savin Hill section of Dorchester, a proud member of Pile 
Drivers Local 56, who left a wife and young children; men like 
Fook Choi Kan, who was a union carpenter from Springfield, who 
also died on this project; and Lonnie Avant, a member of Local 
4 Operating Engineers from Roxbury, who on all accounts was 
considered a true gentleman and someone who took great pride in 
his work.
    And men like my young friend, Frank Shea, of south Boston, 
who was an accomplished boxer and a Golden Glove champ, who 
lived by the simple truth that there was honor in hard work. 
Those gentlemen were reflections of what was and is best about 
America.
    There were common threads that ran through each of their 
lives. They, like their parents, Irish, Asian, African-
American, by their labor they found dignity in their work, and 
that has been an enduring truth in this country.
    It is also directly related to America's sense of shared 
sacrifice and our willingness, as citizens, to support projects 
like this, that probably benefit future generations more than 
they benefit us today, not simply to reduce the length of a 
traffic jam or cut our morning commute time, but because we 
hope that our work can become our legacy, to improve the lives 
of future generations. And as noble as that may sound, it takes 
more than good intentions to build that legacy, as this project 
has shown.
    I think the best example of how quickly good intentions can 
succumb to failure is the story of greed following national 
need during World War II. The people of this Nation were bound 
to a unified cause because of the attacks on Pearl Harbor, and 
they rallied to superhuman acts during World War II.
    And yet as the country grappled with logistics of the war 
effort, terrible examples of waste and mismanagement and abuse 
in our defense contractor practices threatened that effort 
until Senator Harry Truman and the members of the Truman 
Commission investigated the causes of those deficiencies and 
that waste and got the war production effort back on track.
    The risk then was not just in wasted tax dollars but in 
lost lives, shoddy materials, and missed deadlines in delivery. 
Then, Senator Truman got in his car and went around the country 
visiting installations and talking with the people working for 
defense contractors. He knew that the key to reform--true 
reform--would be found where the work was actually occurring.
    And so now we are here today in the spirit of that earlier 
effort, and it is my hope, with at least a small fraction of 
the clarity and the sense of mission that Senator Harry Truman 
brought to his work.
    Why is this as important as the earlier investigations? Our 
transportation system is the key to our economic stability, and 
we have just approved in the House a brand-new $285 billion 
transportation bill. This Nation will continue to undertake 
huge public works projects, but, whether large or small, the 
taxpayer deserves value for each dollar spent.
    This project was and is a courageous endeavor of 
breathtaking ambition--make no question about it--an effort 
that was equal to the people who have built it. And we are 
trying to--what we are trying to do here is preserve the legacy 
of this monumental effort and bring it back into 
respectability, and that can only happen when all the parties 
are held accountable and share in that responsibility.
    I have followed the chronology of this project from its 
inception to today, and I must say through all of its twists 
and turns and conflicts and mediations I have yet to find a 
single example when the interests of the taxpayers and of 
ordinary citizens have prevailed. Well, we are hoping in this 
hearing that will change.
    If we reexamine how we got to this place, and take note, as 
the chairman has said, of lessons learned from our experience, 
if we work together thoughtfully and in good faith to find a 
way to ensure that the public is a partner in this effort, we 
can restore dignity to this project, and we can protect the 
people's interests from this day forward.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T1590.003
    
    [GRAPHIC] [TIFF OMITTED] T1590.004
    
    [GRAPHIC] [TIFF OMITTED] T1590.005
    
    Chairman Tom Davis. Thank you very much.
    Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman. First of all, thank 
you for allowing me to sit with you and to share some time with 
you. Welcome to Boston. Actually, welcome back to Boston.
    Chairman Tom Davis. Thank you.
    Mr. Capuano. And, again, I would echo everything Mr. Lynch 
said about your tenure, both in this chairmanship and as a 
human being. I find you to be one of the most fair and 
honorable people in Congress, and I am pleased and honored to 
sit here for a few minutes with you.
    Chairman Tom Davis. Thank you.
    Mr. Capuano. As far as today's hearings go, there are only 
a couple of things that I am deeply interested in. I am the 
least interested person here in the headlines that are going to 
be in tomorrow's papers or in tonight's news, because I think 
that's part of the problem with this particular project is too 
many people interested in too many headlines and not enough 
people interested in the facts and the realities of the 
project.
    First of all, as everything I understand, and I am going to 
ask every single witness today to answer the question, as I 
understand it today, the project is safe. And everything I have 
read, everything I have heard from everybody involved has 
indicated that it is safe, but I want to hear it from every 
person who testifies here today.
    No. 2, the project is working. I took it to get here today. 
My expectation is that many of you took it to get here today 
and will take it as you leave. And if you didn't take it, I 
would suggest that you do. The project, though not complete, is 
working.
    It is doing what it was promised to do, which is to ease 
traffic flow, improve our environment, and improve the quality 
of life in greater Boston, and hopefully to set an example of 
the kinds of construction projects that are wanted across this 
country to improve the quality of life in other especially 
older cities.
    As far as what we learned from this project, my hope is 
that we learn a couple of things. No. 1 is that we know that 
this project will continue to be safe. That is the top 
priority, that it continues to be safe tomorrow, next week, 
next month, and in the next generation.
    I would hope that over time, maybe not today but over time 
we learn on issues of accountability--who is responsible for 
what, how much, and hopefully none of that will go to the 
taxpayers. But I think that will be part--it will clearly be 
part of the discussion today, and it will take a while to work 
all those things out.
    I also want to hear some of the lessons that we have 
learned from this project, both on a State level and on a 
Federal level. I have been involved in major construction 
projects in the past, and every time you do one you learn 
something.
    This project, as you have heard, is the biggest project in 
the history of the country. There are lots of lessons that have 
been learned, and hopefully they will allow us to improve our 
process in the future, again, both on a State and on a Federal 
level.
    And, finally, I want to make sure that the costs relative 
to this project don't have a negative impact on, No. 1, 
taxpayers; and, No. 2, on future projects.
    I was a former mayor of a city close to Boston, 
Summerville, and during that time when I was mayor I personally 
experienced projects in Summerville that were stopped or 
delayed because the financing on this project sucked up every 
single dollar the State had.
    That was unacceptable, and the solution was a few years ago 
the Congress passed basically a rule or a regulation, a law, 
that said the State must have minimum spending on projects in 
Massachusetts other than the Big Dig. To my knowledge, that is 
still working. That is still in place and still being adhered 
to.
    I want to make sure that the future costs of this project 
don't lead to the same results, both on maintenance and in 
completion. Everything I have heard thus far on completion I 
think we are in good shape. Obviously, maybe we will hear 
different today, but that also goes for maintenance. It doesn't 
do us any good if the maintenance costs of this project are 
100-fold what we expect, so that they suck up future dollars.
    I know that the House just passed a bill, as Mr. Lynch 
mentioned, that for Massachusetts will mean $5.1 billion. It 
means 7,500 new jobs--40,000 jobs but 7,500 new jobs per year 
every year for the next 5 years.
    Now, I happen to think that is the way government should 
work, both for the jobs and economic aspects of it, even for 
the transportation aspect of it. And I don't want those jobs 
jeopardized by the concerns of this project.
    Mr. Chairman, thank you for the opportunity to be with you 
today. Thank you for the opportunity to sit here with you. And, 
again, I hope you enjoy your brief time here in Boston.
    Chairman Tom Davis. Well, thank you very much.
    Members will have 7 days to submit opening statements for 
the record, and we are going to recognize our first panel. We 
have Mr. D.J. Gribbin, who is the Chief Counsel for the Federal 
Highway Administration. Mr. Gribbin is accompanied by Mr. 
Stanley Gee, the Administrator of the Massachusetts Division of 
the Federal Highway Administration.
    Joining Mr. Gribbin and Mr. Gee is the Inspector General of 
the Department of Transportation, the Honorable Kenneth Mead, 
whose office plays a vital role in promoting the effectiveness 
of and preventing waste, fraud, and abuse in departmental 
programs and initiatives.
    And we are also pleased to have the Honorable Tom Reilly, 
the attorney general for the Commonwealth of Massachusetts, who 
has been tasked with leading the current cost recovery efforts. 
We appreciate your being here, too, Mr. Attorney General.
    It is the policy of this committee we swear everyone before 
you testify. So if you could just rise with me and raise your 
right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    Your entire statements are in the record.
    Mr. Gribbin, we will start with you and move straight on 
down. And thank you, once again, for being with us up here.

  STATEMENTS OF D.J. GRIBBIN, CHIEF COUNSEL, FEDERAL HIGHWAY 
  ADMINISTRATION, ACCOMPANIED BY STANLEY GEE, ADMINISTRATOR, 
MASSACHUSETTS DIVISION, FEDERAL HIGHWAY ADMINISTRATION; KENNETH 
MEAD, INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; AND 
  TOM REILLY, ATTORNEY GENERAL, COMMONWEALTH OF MASSACHUSETTS

                   STATEMENT OF D.J. GRIBBIN

    Mr. Gribbin. Thank you, Mr. Chairman. Mr. Chairman, members 
of the committee, thank you again for the opportunity to 
testify today on issues concerning the Boston Central Artery/
Tunnel Project.
    I have asked, as you mentioned, Mr. Chairman, Stan Gee, who 
is Federal Highways' Massachusetts Division Administrator, to 
join me today. Stan is our point person on this project, and he 
has been overseeing it since the year 2000.
    The Central Artery/Tunnel Project is 96 percent complete, 
and substantial completion is scheduled by October of this 
year. This $14.6 billion project has been the largest, most 
expensive, and most complex highway project in U.S. history. 
This ambitious project will provide countless benefits to the 
city of Boston in the way of enhancing safety, easing traffic 
congestion, providing acres of open park land to city 
residents, and reconnecting communities severed by the old 
elevated highway.
    In my time here today, I will touch on three issues--the 
safety of the tunnel, the recent problems with leaks, and the 
cost of the project. First, I wish to take this opportunity to 
restate Federal Highways' conclusion that the Central Artery, 
including the tunnels that are part of this project, is safe 
for public travel. We will not compromise on safety. Safety is 
the Department of Transportation's top priority, and I agree 
with Mr. Capuano that we need to ensure that this project will 
continue to be safe into the future.
    Second, one of the most recent areas of concern with the 
project involves water intruding into the tunnels. This water 
is causing two types of leaks. The most serious of these leaks 
occurred on September 15, 2004, when a slurry wall panel was 
breached, allowing a substantial amount of water to enter into 
the northbound tunnel of I-93 for a few hours.
    In response to this incident, Federal Highway Administrator 
Mary Peters requested an independent Federal highway 
engineering assessment of all tunnel leaks. The Federal 
Highways' tunnel leak assessment team issued its interim report 
on March 23rd of this year.
    The team reports that the project is appropriately 
addressing the tunnel leaks. The September 15 breach appears to 
be isolated to a discrete section of the tunnel and is 
primarily the result of poor quality control during 
construction. It is not a result of a defective design.
    The contractor responsible for this section of the tunnel 
has successfully installed an interim repair, has submitted a 
design for a permanent fix, and has agreed that repairs will be 
made at their expense, not at the public's.
    The MTA is reviewing plans for the permanent repair, and 
Federal Highways will approve plans for the repair once we are 
satisfied that it provides for a structure that is sound, 
durable, watertight, and relatively maintenance free. We will 
also assess the degree to which the repair disrupts nearby 
structures and the traveling public.
    As a result of the September 15 breach, emphasis has been 
placed on the second kind of leak in the tunnels. Federal 
Highways' leak report noted that the project continues to 
manage the tunnel leak sealing efforts in a very methodical 
way. As of April 13 of this year, almost 1,100 leak sealings 
have been performed, and it is estimated that the project is on 
track to have all of the low-level leaks sealed by October.
    Once again, the cost of this work is the responsibility of 
the mainline tunnel contractors, not the taxpayers. Federal 
Highways will continue to monitor these efforts, and will issue 
a report upon completion of all repairs.
    Finally, perhaps the most publicly criticized aspect of the 
Central Artery/Tunnel Project has been its dramatic cost 
escalation. Federal Highways has worked closely with Inspector 
General Mead and his office to ensure Federal Highways' 
oversight practices and procedures to avoid similar 
occurrences. Together we have been able to create a framework 
for major project oversight that will serve us well for the 
remainder of this project and for future major projects.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to testify. I will be pleased to answer any 
questions you may have at the appropriate time.
    [The prepared statement of Mr. Gribbin follows:]

    [GRAPHIC] [TIFF OMITTED] T1590.006
    
    [GRAPHIC] [TIFF OMITTED] T1590.007
    
    [GRAPHIC] [TIFF OMITTED] T1590.008
    
    [GRAPHIC] [TIFF OMITTED] T1590.009
    
    [GRAPHIC] [TIFF OMITTED] T1590.010
    
    [GRAPHIC] [TIFF OMITTED] T1590.011
    
    Chairman Tom Davis. Thank you very much.
    Mr. Mead.

                   STATEMENT OF KENNETH MEAD

    Mr. Mead. Yes. Thank you, Mr. Chairman. Thanks for holding 
this hearing today, and Congressmen Lynch and Capuano. This is 
the most expensive public highway project in U.S. history, 
actually. But it is extremely important to the Commonwealth, to 
the entire northeast, indeed to U.S. interstate commerce.
    I should say, as the chairman alluded to in his opening 
remarks, that the lessons learned on this project have just had 
a huge impact on the oversight approach of the Federal 
Government, as well as on the highway bill that is now pending 
before the Congress. And the lessons learned have already had a 
very positive impact on major construction and other multi-
million dollar projects.
    The chairman mentioned the Wilson Bridge, which crosses the 
Potomac--Virginia, Maryland, and D.C. That project is 
actually--I think it is a little bit under budget, it is 
certainly on target, and that project--we are really all I 
think very proud of the progress that project is making.
    It has also been applied to--the lessons learned on the 
Central Artery have also been applied to other projects like 
the Sound Transit/Light Rail Project in Washington State. It is 
the largest transit project in the country at this time. 
Trentabono in Puerto Rico, and it will have impact on the other 
major projects, such as the Bay Bridge Project in California, 
which is experiencing some problems.
    And I dare say it will probably have an impact on the 
Chicago O'Hare Airport runway expansion program. So I think 
this one will go down in history.
    Our office has been reviewing this project since about 
1991, well before my time. And we are now finding ourselves 
reviewing the 2004 finance plan. We can't approve this plan, 
though, until, among other things, they have in place a 
credible time table to fix the leaks, know approximately how 
much they will cost to fix, and who will pay.
    The project's troubled history of delays and cost increases 
is well known. The Central Artery was to be finished initially 
in December 1998; the new completion date is September/October 
2005. It is almost 7 years later. Their price tag moved from 
$2.6 billion in the beginning to today's $14.6 billion, and 
that estimate of $14.6 has been holding now for 2 or 3 years. 
And I certainly hope it doesn't change.
    Congress has, with respect to the Central Artery Project, 
taken the unprecedented step of actually capping the amount of 
money that the Federal Government would have going to it, and 
it is for the reasons that Congressman Capuano alluded to.
    Four months ago, our testimony to a State legislative 
committee here in Boston detailed two kinds of leaks on the I-
93 tunnels. The taxpayers ought not to have to pay for the 
repairs to these leaks, regardless of whether the project 
manages to come in at $14.6 billion on the button or even under 
$14.6 billion. The taxpayers should not have to pick up the tab 
here.
    Mr. Gribbin outlined the two types of leaks. One is the 
slurry wall leak. This became a public concern last September 
15 when a panel breached, and I think you had 300 gallons per 
minute coming out of that, so that was a pretty big leak. That 
breach was, as he pointed out, caused by a series of 
construction errors.
    Actually, those construction errors were documented when 
the wall was built, but they were not corrected. Since then, 
inspections have found a total of 102 defective or leaking 
slurry wall tunnels. The numbers change daily, but this is--so 
this is as of about April 1.
    There is about 1,900 wall panels, to give you a frame of 
reference, so 102 of them they found a problem with. Here is 
the breakdown on the types of problems. Two of them need major 
repairs, 33 of them need what I would call moderate repairs, 
and 67 of them need only patching; 10 of them have been 
repaired, but the Authority has not approved the repair yet.
    So we have 400 of about 1,900 odd wall panels that still 
need to be inspected. That is about 20 percent. So I would like 
to see that get done.
    Now, the Massachusetts Turnpike Authority is going to have 
to decide soon on how to repair the wall panels with the worst 
defects. There are three suggested methods. One is to install a 
steel plate over the hole, a second does the same thing, but 
adds a reinforced concrete, and a third requires rebuilding the 
wall.
    The Authority faces the challenge of selecting one without 
being perceived by the public as picking just the most 
expedient method. I think that is very important, given this 
entire affair. A permanent, lasting fix to the walls ought to 
be the paramount concern, and obtaining the most cost-effective 
one at this point I think is probably secondary.
    The second type of leak is found up at the roof wall 
joints, and these are worrisome because they have long-term 
maintenance implications. The number changes constantly as the 
leaks--as you seal one leak with the grout--I guess they are 
called grout injections, you seal one and the water goes down 
all over and you get two more leaks. And that is why you see 
these numbers keep fluctuating so dramatically.
    Last summer, for example, there were more than 700 roof 
wall joint leaks. As of April 1, there were 662. More than 
4,500 of the 9,000 odd roof wall joints still have to be 
reinspected for leaks. All of the roof wall joints have been 
inspected once, so now they are on the second round of 
inspections, and we still have 4,500 to check out.
    We don't know yet the full cost of repairing all of the 
leaks. A consultant assessment of the cost is due next month, I 
think in the middle of the month. And, again, the Authority has 
said that its contractor is going to pay to fix the leaks. We 
are not entirely confident of this.
    According to the Authority, contractors have already been 
paid $7 million for leak repairs, and they estimate they will 
have to be paid--have to pay another $10 million. We are 
concerned that the costs and payments related to leak and water 
problems may significantly exceed the $17 million.
    And these payments may actually go back further in time 
than we thought. Certainly, they go back through all of 2004. 
They may go back for several years prior to that as well. 
Taxpayers may have already paid for some of them. Now these 
costs, if already paid, will have to be recovered.
    I would like to turn now to the cost recovery program. The 
cost recovery program that we now have in place for the Artery 
will be helpful in returning some leak-related payments to the 
project. Maybe all of them. The previous efforts on cost 
recovery here, though, have been anemic.
    In December, we recommended that the State form a 
bipartisan commission that was independent of the Authority to 
investigate the leaks and that this Commission would work with 
the attorney general. Well, the Commission wasn't recreated, 
but the Authority recently transferred its cost recovery 
program to the attorney general's office.
    We see this as an improvement, as a positive step, because 
it served to remove the program from their project management 
structure, where it was hampered by all kinds of role 
conflicts, especially with Bechtel/Parsons Brinckerhoff, who 
was a partner of the Artery, who is responsible for quality 
assurance and portions of the project design, and who has been 
paid nearly $1.9 billion for its work.
    So we know the attorney general, Mr. Reilly. We have talked 
several times on the phone. I know he has his work cut out for 
him, and we wish him the very best. But he has to not only look 
at the cost recovery issue for the leaks; he has to look for 
cost recovery for the entire project, for things that have 
nothing to do with the leaks, but have to do with change orders 
that have already been paid.
    In fact, the cost of the leaks are only a modest portion of 
the cost recovery effort. Let me give you a frame of reference. 
Over the life of this project, there have been over $2 billion 
in contract change orders. A significant portion of these are 
claims by contractors for work they claim is beyond the scope 
of the original contract, or for work that they did because 
they felt they encountered significant problems that they had 
not expected.
    As of February 28 of this year, there were over 3,600 
unresolved contractor's claims for over $400 million. That is a 
large piece of change.
    We are currently reviewing the 2004 finance plan, as I said 
before. By law, we must determine whether that plan contains 
reasonable estimates for cost schedules and funding sources, 
before the Department decides whether to release I think it is 
about $81 million remaining in Federal funds.
    And we won't be in a position to do that until more 
information is known about the extent of the leaks, which means 
all of the inspections have to be done, and a cost has to be 
attached to them. And we would like a reasonable estimate as to 
what it is going to take to dispose of them.
    And I think I would just like to close by starting out 
where I began, to say that there have been some important 
lessons learned in this project. The last project finance plan 
we reviewed from the Central Artery, it is--I tell people as I 
go around the country and speak that it was probably among the 
best in the country.
    I know the Wilson Bridge project used the improvements that 
the Central Artery had made in its finance plan, and there has 
been a lot of other lessons learned. And hopefully we can get 
this project done, no more cost overruns, we can get the leaks 
resolved, and move on.
    And, again, thank you for holding the hearing, Mr. 
Chairman.
    [The prepared statement of Mr. Mead follows:]

    [GRAPHIC] [TIFF OMITTED] T1590.012
    
    [GRAPHIC] [TIFF OMITTED] T1590.013
    
    [GRAPHIC] [TIFF OMITTED] T1590.014
    
    [GRAPHIC] [TIFF OMITTED] T1590.015
    
    [GRAPHIC] [TIFF OMITTED] T1590.016
    
    [GRAPHIC] [TIFF OMITTED] T1590.017
    
    [GRAPHIC] [TIFF OMITTED] T1590.018
    
    [GRAPHIC] [TIFF OMITTED] T1590.019
    
    [GRAPHIC] [TIFF OMITTED] T1590.020
    
    [GRAPHIC] [TIFF OMITTED] T1590.021
    
    [GRAPHIC] [TIFF OMITTED] T1590.022
    
    [GRAPHIC] [TIFF OMITTED] T1590.023
    
    [GRAPHIC] [TIFF OMITTED] T1590.024
    
    [GRAPHIC] [TIFF OMITTED] T1590.025
    
    [GRAPHIC] [TIFF OMITTED] T1590.026
    
    [GRAPHIC] [TIFF OMITTED] T1590.027
    
    [GRAPHIC] [TIFF OMITTED] T1590.028
    
    [GRAPHIC] [TIFF OMITTED] T1590.029
    
    Chairman Tom Davis. Thank you very much.
    We will now hear from the Commonwealth's attorney general. 
Mr. Reilly, thank you for being with us.

                    STATEMENT OF TOM REILLY

    Mr. Reilly. Mr. Chairman, thank you. And Congressman Lynch 
and Congressman Capuano, thank you for being here as well.
    Mr. Chairman, I also want to thank you for your courtesy in 
scheduling my testimony this afternoon. I have submitted 
written testimony, so I will not repeat that at this point. 
There are a couple of points I do want to pick up on.
    Ken Mead is right; we do have our work cut out for us in 
this endeavor in taking over cost recovery. Let me tell you why 
we agreed or actually volunteered for this task. This 
represents--and the importance all of you have noted--it is a 
very important project. It represents an enormous investment on 
the part of the Federal and State governments and to 
transportation improvements, not just for the city of Boston 
but also for this entire region.
    But it is more than transportation. Any one of you that has 
been over the Zakim-Bunker Hill Bridge realize it is a 
magnificent structure, a wonderful introduction into a great 
city. And it is my hope that we will get to a point where we 
will all be proud of this project and appreciate what has been 
done here.
    But we are not there yet; there are serious problems. And 
getting from the problems to the promise of a future of this 
project is why we stepped in. There were suggestions at the 
time of a commission; I did not agree with that approach. Cost 
recovery is going to go one of two ways. It is either going to 
be a negotiated settlement, or it is going to end up in 
litigation. Commissions don't litigate; commissions really 
don't negotiate. So we decided that we would step in.
    Also, Mr. Chairman, I take this responsibility, and to 
Congressmen and the Federal Government, I take this 
responsibility very seriously. We want to demonstrate to you 
that we can do the job that you expect of us, and we will try 
and are committed to doing that.
    Let me just bring you up to date very quickly as to where 
we are. Currently, we are reviewing 134 issues for cost 
recovery. The major ones--and Ken Mead spoke on the leak issues 
in the I-93, and clearly there has been poor construction. But 
our focus is not just on the construction companies; our focus 
is on Bechtel. They were hired to do a particular job, in terms 
of oversight, in terms of design. And our focus is on them.
    There is a lot of focus and a lot of attention paid to the 
slurry walls. We are equally concerned with the wall and the 
roof joint with the continuing leaks. We are not confident with 
the approach that has been taken in terms of grouting, filling 
those leaks and those holes with--by grouting. You cannot--in 
our estimation, you cannot grout your way out of this problem.
    We are concerned that this may not be solvable in the--for 
a permanent solution, and we may have on our hands a very long-
range maintenance problem for the project. And certainly we 
will have to take some time to find out, if that is true, what 
is the cost and who is going to pay.
    Again, we believe that the responsibility, the ultimate 
responsibility, is not with the taxpayer--the ultimate--the 
Federal Government or the State government. The ultimate 
responsibility lies Bechtel. Waterproofing is a major issue 
throughout the project.
    Again, Bechtel was responsible for the concept for the 
entire project, and concerns have been raised about the choice 
of materials and design of certain of the waterproofing 
details. Again, we see that as the responsibility of Bechtel.
    There is a serious matter involving the so-called Honeywell 
contract, which is a communications system throughout the 
project for alert to any problems in the systems. Again, 
Bechtel has a role in this.
    There are roadway problems with pavement, causing not only 
regrinding but also repavement. That has been so-called--people 
went through it in the early stages of so-called rollercoaster 
effect. Again, we see that as the responsibility ultimately of 
Bechtel.
    Last, there are problems with the water treatment system on 
Spectacle Island for the treatment of environmental waste. It 
is not functioning properly. Again, we see ultimately the 
responsibility--there is a lot of focus and a lot of 
fingerpointing back and forth, but ultimately we see the 
responsibility being with Bechtel.
    In the end, our goal is to recover as much money as we can 
for taxpayers, both Federal and State, and to make sure that 
when all is said and done we got what we paid for.
    Thank you, Mr. Chairman, and thank you for being here in 
Boston.
    [The prepared statement of Mr. Reilly follows:]

    [GRAPHIC] [TIFF OMITTED] T1590.030
    
    [GRAPHIC] [TIFF OMITTED] T1590.031
    
    Chairman Tom Davis. Well, thank all of you for being here, 
and for the testimony, some of which is in the record and 
wasn't discussed here.
    Mr. Mead, let me start with you. You said we have 3,600 
claims for change orders that came through, basically?
    Mr. Mead. Yes, sir.
    Chairman Tom Davis. Now, when these change orders came 
through, were they agreed to by whoever was administering the 
project, or did they just decide to make the change and resolve 
later who was going to pay for it and how it was going to--and 
who was to blame?
    Mr. Mead. All of the above. One of the problems with this 
project is that things that are now in dispute as to whether or 
not the Commonwealth ought to get money back that they already 
paid many years ago. I think there was a haste to pay some of 
these things, and now we still have a very large number 
outstanding.
    I would just--some of these things just went unattended for 
many, many years, and now Attorney General Reilly has a task of 
trying to recover the cost of these things.
    Chairman Tom Davis. He has to pick up the pieces.
    Mr. Mead. Yes, sir.
    Chairman Tom Davis. Well, you--Mr. Mead, you said it was 
about $400 million in these change orders roughly.
    Mr. Mead. There's $400 million, sir, just pending now that 
still have to be resolved.
    Chairman Tom Davis. Payment doesn't resolve it? The fact 
that these people were paid doesn't resolve it, in other words. 
There is----
    Mr. Mead. Well, it----
    Chairman Tom Davis. Was it paid under protest, or how did 
that work?
    Mr. Mead. Well, they would just pay it, and there would be 
no protest. And now people are raising a protest, and saying, 
``We never should have paid this. This was somebody else's 
fault.''
    Chairman Tom Davis. Can you elaborate on that, Mr.----
    Mr. Reilly. Yes, this is a big----
    Chairman Tom Davis. I have never heard of that before.
    Mr. Reilly. Well, there is a lot of things we haven't heard 
of before, and there is a lot of lessons to be learned.
    Chairman Tom Davis. I was a government contracts attorney 
for 20 years. I was a general counsel for a $1 billion company, 
and we worked with the government a lot. And it was resolved or 
you didn't get paid. That is the way it used to work with us. 
Sometimes you would do the work, but they would hold the money 
until--you are telling me they paid this up front and then are 
trying to resolve it later?
    Mr. Reilly. One of the big----
    Chairman Tom Davis. Either one of you.
    Mr. Reilly. One of the major problems here is that there 
was no cost recovery for a period of 10 years. This should have 
been done in a timely fashion.
    Chairman Tom Davis. I understand.
    Mr. Reilly. An ongoing fashion. Deal with the problem when 
it comes up, and decide who is going to be paid and for what, 
and some of the quality assurances. That wasn't done and----
    Chairman Tom Davis. Who would make the decision to pay? 
Would it have been Federal Highways? Would it have been the 
State? Was it a low-level person? I mean, obviously you are 
trying to get the mission accomplished. You have the bulldozers 
out there, or the drillers, or whatever.
    They say they need to get paid, but who would make the 
decision to pay versus saying, ``Let us see if we should make 
this change?'' I mean, at what level was that done? Was that 
done Federal or State or--can you explain that to me?
    Mr. Mead. I would say that first inside the Artery there is 
a great deal of closeness between the Artery and its project 
consultant, Bechtel/Parsons Brinckerhoff. It was almost a 
partnership, and I think there was some failures there.
    At the Federal level, I have to candidly say that I think 
the Feds dropped the ball as well. There was very little 
oversight. I think the Feds were thinking that there was a 
great deal of oversight going on inside the project, and the 
project was thinking everything is going fine. But the Federal 
Government learned a lot of hard lessons from this, Mr. Davis.
    Chairman Tom Davis. If the money is recovered at this 
point, the money that is recovered, who does it go to? Does it 
go to Federal Highways? Does it go to the State? Can somebody--
--
    Mr. Reilly. Most of it--at least 60 cents on the dollar--
goes to the Federal Government. It is Federal money.
    Chairman Tom Davis. It will be shared basically in 
proportion----
    Mr. Mead. It will be a shared project.
    Mr. Reilly. In proportion with the investment that was made 
in the project. Most of that money is Federal money, at least 
60 cents on the dollar, maybe a bit more.
    Mr. Mead. I think, though, that a lot of that money might 
find its way back to the Commonwealth, because a lot of that 
money came to the Commonwealth as part of its annual 
apportionment.
    Chairman Tom Davis. OK. So it is Federal money. And 
depending how it was apportioned, it could be returned to the 
State.
    Mr. Mead. Yes.
    Chairman Tom Davis. Or to the Federal Government, or 
whatever. But there is a lot on the table.
    Mr. Mead. Yes, sir.
    Chairman Tom Davis. General Reilly, do you have any idea 
how much money is on the table at this point?
    Mr. Reilly. At this point, there has been a lot of 
speculation, a lot of numbers thrown out there. I am 
uncomfortable with doing that. We have----
    Chairman Tom Davis. You set an expectation level when you--
--
    Mr. Reilly [continuing]. And we have given assurances, and 
we will give assurances to you. This will be fact driven. We 
will make decisions based upon facts. When we have numbers that 
we believe we can prove in court, then we will inform--if you 
want to be notified, and the Congressman wants to be notified--
and I know the Federal authorities, they will be----
    Chairman Tom Davis. That is fine.
    Mr. Reilly [continuing]. They will be notified when we have 
hard numbers that we can back up.
    Chairman Tom Davis. I guess the last question before my 
time runs out--we may do a second round, because I think we all 
have a lot of questions as we go through this. Is there a 
statute of limitations problem with any of this, that money 
might have been paid off in the past, it probably shouldn't 
have been paid off, but the statute has run on our ability to 
get it back?
    Mr. Reilly. In some cases----
    Chairman Tom Davis. That is a possibility.
    Mr. Reilly [continuing]. There are problems. There are 
problems with people being gone. It is with memories, it is 
with documents, it is with statute of limitations.
    Chairman Tom Davis. The usual.
    Mr. Reilly. On the other end of it, we have just got to 
work our way through those problems and get the best possible 
result that we can. But if there is a lesson to be learned 
here, cost recovery should have been taken on an on-time basis.
    Chairman Tom Davis. Right. And I think you have heard the 
Woodrow Wilson Bridge project is going along, because of some 
of the mistakes made here. We are not replicating those 
mistakes in other parts of the country. I think from the 
committee's perspective, we would be interested as you move 
through to see if there are statute issues, things that might 
have fallen through because of timeliness and stuff, not to 
basically point a finger at anybody, but just to understand 
this. Historically, I think that is important for us moving 
ahead.
    But we appreciate your cooperation in this. I am going to 
recognize Mr. Lynch.
    Mr. Mead. Mr. Chairman, if I might just, given your 
background, I think you can relate to this point really 
quickly. You asked Attorney General Reilly for, you know, does 
he have a sense of what the magnitude of cost recovery would 
be, and he I think quite properly----
    Chairman Tom Davis. He said what I would have said.
    Mr. Mead. Yes. And when I was a lawyer would say, too. But 
you should know that up until a couple years ago, this is a 
$14.6 billion project. The total amount of cost recovery up 
until 2 years ago was roughly $30,000.
    Chairman Tom Davis. There is a lot of money on the table. I 
got you. Thank you very much.
    Mr. Mead. I hope so.
    Chairman Tom Davis. Thank you very much.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Gribbin, I just wanted to followup very quickly with 
you. You answered rather forthrightly that you thought the 
tunnels were safe. When we heard from the two construction 
experts--Mr. Lemley and Mr. Tamaro--at the State hearing, they 
answered in a similar fashion, but they conditioned that 
response by saying, ``The tunnels were safe for now.''
    They also said that if proper maintenance were not--was not 
conducted, and proper repairs not done in a timely fashion, 
then an unfair--or an unsafe condition could arise. Do you--is 
that condition unstated in your answer?
    Mr. Gribbin. I mean, our answer would be, first, as part of 
the September 15 incident, we created a leak assessment task 
force that did the interim report that I mentioned in my 
statement. At that point in time, our experts went through the 
tunnel and found it to be safe. We will continue, however, to 
monitor the leaks, to monitor the injections on the leaks, and 
we will be doing a final report once the project is complete.
    And this project is still under construction from our 
standpoint. And so we will--this project is perfectly safe to 
be used. I don't think we are going to project forward into the 
future too far until we finish our report, which will be done 
after the project is completed.
    Mr. Lynch. Right. All I am saying is you have at least--
right now you have 102 flaws that they have noted, a couple of 
them serious, 33 of them No. 2's as they say, moderate 
deficiencies, and then 67 light ones. I am just concerned 
about----
    Mr. Gribbin. That is correct.
    Mr. Lynch. And not only that, but the patch that is on E-
045, which is the burst panel, that is a temporary patch, so--I 
am just concerned about the completeness of your answer, 
whether or not you think that, if we don't have proper 
maintenance and repairs in a timely fashion, that there could 
be an unsafe condition that arises.
    Mr. Gribbin. The assessment that we made was that the patch 
was appropriate. It is a temporary patch, but clearly 
appropriate to protect the integrity of that wall in the tunnel 
until a permanent patch can be made. But why don't I let Stan, 
since he is the engineer here, add to that answer.
    Mr. Gee. Sure. To answer your question, Congressman, there 
have not been any discoveries of additional breaches of the 
type of September 15. So we are confident now that the tunnel 
is safe. The temporary repair is holding. We have recommended 
they go to a permanent repair as soon as they can.
    For the long-term safety, we are recommending they do a 
tunnel--they create a tunnel inspection program similar to what 
we do for bridges. I think you are all familiar with the 
National Bridge Inspection Program that requires a periodic 
review of bridges. Well, we are going to institute--we have 
recommended, and will follow through, that the tunnel create an 
inspection program for the long-term safety.
    Mr. Lynch. Thank you. Inspector General Mead, I want to say 
how pleased I am with the work you have done on this, and you 
have been very helpful. I do note in your report this--for the 
record, ``The Impact of Water Leaks on the Central Artery/
Tunnel Project and Remaining Risks,'' by the Honorable Kenneth 
Mead, Friday, April 22.
    You note that in your inspection you originally testified 
back in December that it was an open question whether the 
September breach was a one-of-a-kind event or a harbinger of 
systemic problems in the tunnel walls. And, however, based on 
the results of the Authority's inspections to date, it is clear 
in our opinion that the wall panels leaks are systemic and are 
not centered in just one contractor's section, as was 
originally suggested.
    That failure occurred 5 years ago. I am sorry. The wall was 
constructed 5 years ago. The defects sat latent 5 years ago. 
For that 5 years, Bechtel had a responsibility to inspect. For 
that whole 5 years, we never were informed of, even though they 
had the information in their possession, they never informed 
the public, and we never found out about this latent defect.
    The fact that there is another 101 defective slurry wall 
panels that have been found, and the problems are more 
systemic, as you say, are there suggestions that you would make 
in terms of the approach that should be taken in order to 
guarantee the structural integrity of the tunnel? Not only in 
the short term, but in the long term as well?
    Mr. Mead. Well, I, too, have never had any question that 
the tunnel is safe, and it has integrity, and it will be safe 
for travel, and so forth. But I do think this leak situation, 
and the magnitude of it, does need to be resolved. And, yes, I 
do have a suggestion.
    The first thing we need to do is we need to complete all 
these inspections, both the slurry walls and the roof wall 
joints. Then, we need to have a credible process for deciding 
how to fix them. You can already hear in this hearing that 
there is going to be some controversy about the fix. I think it 
is incredibly important that the public perceive that the fix 
is the right one.
    Mr. Lynch. I just want to--just for the sake of this--
follow up on this question, sometimes a picture is worth 1,000 
words. Leah, I don't know how you turn the lights down a little 
bit. I just want to show you, a lot of people have seen the 
flooding, the water on the street. But I want to go to Slide B2 
if we could. These are pictures of the breach that occurred 
back on September 15.
    I don't know if you can see that very well. There is sort 
of a waterfall thing going on there. That is the breach. And, 
notably, I wanted to bring your attention to the clock on this. 
This is midnight, basically, on September 16. This wall 
breached between 2 and maybe 3 and 5 o'clock I think on the 
15th.
    So this has been running. This actually burst, let us see, 
a number of hours, at least--let us see, I am not sure of my 
timing on the original breach. I think it was 8 or 9 hours 
previous to this picture being taken. So this is after the wall 
panel was taken apart.
    Based on what you see here, and I can only imagine what the 
actual force of this spout of water out onto the interstate 
highway, by the way, which was being used by traffic traveling 
at, let us just say, 55 miles an hour. Do you have any sense on 
the safety aspect of this, you know, given the fact that now 
you have had an opportunity to see what the breach actually 
involved?
    Mr. Mead. Well, obviously, if you had a lot of breaches 
like that, you would have a safety problem. I mean, you would 
need a boat. But I think there is two walls--there is two 
panels where we have defects that are classified as serious, 
and there is 30 others, 30 odd others where I think the problem 
is moderate. It needs to be fixed, so it doesn't become 
serious.
    Maybe you would like to speak to that.
    Mr. Gee. Yes. You know, on that particular situation, the 
State Police shut down the lane, so it wasn't a danger in terms 
of traffic flooding. In that particular situation, they had it 
sectioned off. There was one lane of traffic that was allowed 
to pass through. When the water was emptied, it was restored to 
full operation.
    The other leak that goes all the way through the wall is 
the size of a tennis ball. OK? It is no longer leaking. It has 
actually been temporarily fixed. All of the other leaks that we 
have do not--are indentations or gouges in the wall, and this 
is a----
    Mr. Lynch. Are inclusions--is that included as well?
    Mr. Gee. Excuse me?
    Mr. Lynch. Are there inclusions?
    Mr. Gee. Yes.
    Mr. Lynch. Yes.
    Mr. Gee. Yes. The foreign material, like dirt or whatever, 
that was mixed in----
    Mr. Lynch. That fell into the slurry during construction.
    Mr. Gee. Right. And when we poured the concrete, they 
filled up the hole. My point is that those other ones don't go 
all the way through. This wall is almost 4 feet thick. So the 
other moderate defects--also, most of the--if many of the--let 
us see, I think very few of these defects, the numbers you--are 
wet, are actually leaking. These are defects that have foreign 
material in there, but they are not leaking water.
    The last point I wanted to make is that these--the moderate 
ones, as the Inspector General has mentioned, these are defects 
that have inclusions that may be more than a foot deep. OK? But 
the wall is almost 4 feet. That is why I can say that there is 
not a structural integrity problem; it is a quality control 
issue as was pointed out.
    Mr. Mead. Now, you know, we have 400 of these panels of 
these--that still have to be inspected. And what is very 
troubling about this whole matter is that they knew that there 
was a problem, and it wasn't fixed. And that this happened so 
many years ago, and now there is a second one. Plus, they found 
these problems with almost 100 panels.
    I would hope that this teaches us a lesson that there is 
something broken in the quality assurance process. And I hope 
that the remaining 400, when they get done with those 
inspections, they don't--that it doesn't turn up other 
problems.
    Mr. Lynch. I am going to--I know I have taken more than my 
time. My concern is this, Mr. Gee, and maybe you can address it 
at a later time. These defects are latent, just like the--this 
was a latent defect until it burst. These walls are 3\1/2\ feet 
thick. We shouldn't have water spouting through a wall 3\1/2\ 
feet thick. We shouldn't have a hole the size of a tennis ball 
through a wall 3\1/2\ feet thick.
    And in my estimation, we shouldn't have traces of water 
filtering through a concrete wall 3\1/2\ feet thick. And the 
reason it was designed to be 3\1/2\ feet thick is we need that. 
We need that thickness to retain the soil and the water 
pressure behind it.
    And all I am saying is that these inclusions that are 
treated so lightly by many are actually, over the long term, 
threatening the structural integrity of those panels, not of 
the tunnel itself but of those lateral panels that are holding 
back the soil.
    OK. The last question I have--I know I am over----
    Chairman Tom Davis. Can I just follow on to that? I will 
give you your last question. You said they knew about this. I 
mean, the contractor knew about this. Did State or Federal 
inspectors know about this, too?
    Mr. Mead. Well, it is not clear--it is----
    Chairman Tom Davis. Or should they have known about it?
    Mr. Mead. Oh, yes, they should have known about it. We also 
know, though, sir, that Bechtel/Parsons Brinckerhoff, whose job 
it was to do quality assurance, knew about it. But they did not 
require its correction. And the paper trail that we traced 
down, it ends at problem identification. And there is no 
followup documentation that we were able to find.
    Chairman Tom Davis. Why do you think that is?
    Mr. Mead. I don't----
    Chairman Tom Davis. Is there any possibility of collusion 
here, that everybody is just so close here they are losing 
things?
    Mr. Mead. I think, at best, sloppiness.
    Chairman Tom Davis. At best.
    Mr. Mead. At best, it is sloppiness.
    Chairman Tom Davis. It could be collusion.
    Mr. Mead. Yes. And, you know, what the taxpayers want here 
is they want a wall panel that meets the specifications that 
were originally designed.
    Chairman Tom Davis. So do the drivers.
    Mr. Mead. And that is going to be tough to do now. 
[Laughter.]
    That is right. The drivers that have to go through there.
    Chairman Tom Davis. Thank you.
    Mr. Mead. Yes, sir.
    Chairman Tom Davis. Mr. Lynch, one more question.
    Mr. Lynch. Just one last piece, and we are going to let Mr. 
Capuano finally say something. The inspections that we are 
talking about here--and I know we have a technical panel coming 
up behind us--but is this with non-destructive testing? Are we 
doing pulse echo? What are we--is this just visual detection of 
defects, or are we actually scanning these walls with, you 
know, pulse echo or ultrasound or--how are we detecting these 
panel defects so far?
    Mr. Gribbin. I am going to volunteer Mr. Gee for that 
question. [Laughter.]
    Mr. Lynch. OK. That is a question for--that is called a 
question for the next panel.
    Mr. Gee. We are doing--all of those are being done now. The 
initial screening is visual, OK, but when there is a question 
of a defect, all of the methods that you describe, non-
destructive as well as actual picking away, is the inclusion of 
the material, the foreign material is being done, too.
    Mr. Lynch. But it requires some other indication before you 
do that, right?
    Mr. Gee. Yes.
    Mr. Lynch. So you are not doing that with every single 
panel in the tunnel. You are not going through with non-
destructive testing, making sure there is no flaw, no defect or 
deficiency within the panel.
    Mr. Gee. Yes. At this point in time, the inclusions are 
obvious in terms of visually seeing those. OK? And if there is 
a leak, obviously you will see a wet wall.
    Chairman Tom Davis. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Gentlemen, I am going to ask you precisely the question I 
said I was going to. I know that some of you addressed it, but 
I want to make sure I hear it again. Based on what you know 
today, understanding that things can change tomorrow, but based 
on what you know today, is the tunnel safe today?
    And on the presumption, I would imagine, Mr. Gribbin, I had 
heard before that you had suggested a national bridge-like 
inspection for this tunnel, which will be the first tunnel in 
America, if I understand, that would be on such an inspection. 
And I hope and presume and will do everything I can to assist 
you to make sure that gets enacted.
    But on the presumption that ordinary maintenance and 
everything gets done, which to me that is a presumption, that 
every bridge I drive over has ordinary maintenance--on the 
presumption that ordinary maintenance gets done, is there any 
reason to suspect today that these tunnels will be unsafe in 
the near or distant future? Mr. Gribbin.
    Mr. Gribbin. There is no reason to believe that these 
tunnels will be unsafe in the near or distant future. We have 
had a good number of experts looking at this, and all of them 
have concluded the same thing.
    Mr. Capuano. And that today they are safe to your 
knowledge?
    Mr. Gribbin. That is correct.
    Mr. Capuano. Mr. Gee.
    Mr. Gee. Yes. I have nothing to add to that. That is true. 
That is my opinion also.
    Mr. Capuano. Mr. Mead.
    Mr. Mead. Yes. As I said before, the structural integrity 
of the tunnel I have no problems with. I think it is safe for 
the traveling public. I do think, though, that a very 
compelling case could be made that when you consider all the 
circumstances here that every one of these wall panels ought to 
be scanned.
    It is going to cost some more money. But given what has 
happened here, given that picture, given the fact that this was 
a latent defect that nobody saw until, I mean, once the thing 
was built, they identified the problem, did nothing, I want to 
make sure that there is no others out there like that.
    So I would go to the expense of scanning every one of the 
panels in this tunnel before we put this to bed.
    Mr. Capuano. Mr. Attorney General.
    Mr. Reilly. Congressman, my understanding is that the 
tunnel is safe. But there is a bottom line here, and the bottom 
line is that there is too much water coming into this tunnel, 
far more water than anyone anticipated. We also know that in 
the winter months there is more leakage than at other times of 
the year. And, you know, the last time I checked, winter comes 
every year here, and it comes harsher in some years than 
others.
    Now, with that water in the tunnel, at places it shouldn't 
be and in amounts it shouldn't be, we have--there is a 
maintenance problem, and in terms of driving conditions, yes, 
it is not a good situation until we get to the bottom of this, 
find out what is causing the leakage, what is causing the 
water, and correct it.
    So is it safe? Yes. But let us get to the bottom of it.
    Mr. Capuano. But to your knowledge at the moment, the 
tunnel is safe, and there is no reason to suspect----
    Mr. Reilly. Oh, yes.
    Mr. Capuano [continuing]. That it won't be safe for the 
near future.
    Mr. Reilly. What you have heard--and, again, I am not an 
engineer, but all of the information I have had, it is 
structurally sound, it is safe, but there is too much water 
coming into that tunnel.
    Mr. Capuano. Thank you. Mr. Inspector General, first of 
all, I want to thank you for coming today. I also want to thank 
you for the assistance you have given both in this project and 
other projects with my office and me personally. And for those 
of you who don't know, the Inspector General is a son of 
Massachusetts. He is a proud product of us, and I am very 
pleased that he is back home today for a little while.
    Mr. Inspector General, in your written report, and I think 
you also said in your comments, you had suggested an 
independent commission for this, and I had agreed with you. And 
I just want to know, in your perfect world, if you were the 
emperor of the universe tomorrow, right this minute, would you 
still stand by an independent commission?
    Mr. Mead. I am very encouraged by the fact that Attorney 
General Reilly has stepped up the Commonwealth to a place to 
control. I ought to say, to begin with, why--we came up with 
this idea of the independent commission. Why did we come up 
with it? Well, I am not a real good student maybe of 
Massachusetts politics.
    But I did--I could see that the Massachusetts Turnpike 
Authority, which is--has this huge project and isn't part of 
your State Department of Transportation. First of all, that was 
kind of unusual. And the Massachusetts Turnpike Authority had a 
cost recovery effort set up inside itself, and I thought that 
was kind of strange because the Massachusetts Turnpike 
Authority itself may have been some--may bear some of the 
responsibility for the problems here.
    In addition, their consultant, their partner, was the one 
that the cost recovery effort, or a large part of it, was 
directed against. We came up with the idea of the commission, 
sir, because it seemed to us that it needed to be defanged of 
politics. And it was our idea that, if you had a commission 
that was bipartisan, they could work with the attorney general, 
who is endowed with these enforcement powers, and proceed.
    The decision was made that the attorney general, who has 
the legal authority, who has the skill set in his office--and 
we wish him well. I support the effort. We will continue to 
coordinate. And we were just trying to break a log jam by 
pushing the independent commission.
    That is a long-winded way of saying I am not wedded to the 
idea of an independent commission.
    Mr. Capuano. Mr. Inspector General, I am a student of 
Massachusetts politics. [Laughter.]
    And I supported, and I still support, the concept of an 
independent commission. But I want to make it clear, it is not 
because of a lack of confidence in the attorney general or his 
office. I think they do a great job of everything that I am 
aware that they do. I think they will do a good job on this.
    My concern is the future. Everybody in this room knows the 
attorney general is more than likely to run for Governor, and I 
wish him well. And everybody in this room knows that I thought 
about running for Governor and decided that Washington needs me 
more. [Laughter.]
    So I don't--I am not trying to hide anything here, and I am 
not trying to play footsies about it. My concern is in a couple 
of months, or a year, or 2 years, whenever the attorney 
general's office comes up with whatever findings they have on 
any of these issues, it is going to be the middle of a 
gubernatorial campaign.
    At this very moment, I myself am personally aware of only--
I haven't done a whole full-blown research--two news articles 
already where the Governor himself or his people have already 
attacked the attorney general and his process when the attorney 
general hasn't done anything yet except begin the process. He 
has already been attacked on political--my opinion, politically 
motivated purposes.
    And my concern is exactly what you repeat throughout your 
entire testimony, your written testimony, is the main aspect 
here is to restore public confidence. And as a student of 
Massachusetts, and probably international politics, when 
politics is involved--and I am a politician, there is a place 
and time for it--public confidence goes out the door.
    And when the time comes, if the attorney general does 
everything perfectly correctly, and comes up with the perfect 
answer, no matter what he comes up with, it is going to be 
subject to political second-guessing and headline-grabbing. So, 
for me, I still support the independent commission, because I 
want politics out of this once and for all.
    Mr. Mead. Yes. I did think also--and I didn't say this in 
my response--another thought that went through our minds on the 
independent commission is what happens if it turns out that 
cost recovery is not possible, given some of the factors that 
Chairman Davis alluded to.
    An independent commission, in our heads at the time, the--
that would have taken--it would have made it so that the 
expectations of success wouldn't have carried a political 
implication if it was bipartisan. And I still think it is a 
very hard road on cost recovery. And you've waited many, many 
years on some of the claims that are--Mr. Reilly is going to be 
pursuing here.
    And that is going to be a very hard road to tow. That is 
why I say, Mr. Reilly, I wish him well. [Laughter.]
    Mr. Capuano. Thank you. I see that my time is up. Thank you 
very much.
    Chairman Tom Davis. Thank you. Well, I am not a student of 
Massachusetts politics, but I won my first election here to the 
Freshman Council at Amherst College. I was elected that, and 
then I was elected president of the Young Republicans and that 
ended my career in politics in Massachusetts. [Laughter.]
    Mr. Capuano. You should have stayed. You could have been 
Governor. [Laughter.]
    Chairman Tom Davis. I hope everybody works together on 
this, regardless. Mr. Reilly, I am sure you will work with the 
Governor's office. I mean, this is--this really rises above 
politics at this point. There has been--so many bad things have 
happened to this, whatever our views, we just need to pull 
together.
    But let me ask you this. Your MOU with the Turnpike 
Authority ends in 2006, is that right?
    Mr. Reilly. Yes.
    Chairman Tom Davis. And this is all not likely to be 
finished by that time. Obviously, you want to tie up as many 
loose ends as you can. What is the strategy to tying up the 
loose ends after that? Just to renew it?
    Mr. Reilly. That is the end of my term, and I did not feel 
that it was appropriate to bind anyone else. I have accepted 
this responsibility. Someone else would decline it, and I 
understand that.
    Chairman Tom Davis. And obviously you would love to wrap it 
up, but I doubt it. You know, if it happens, then--you don't 
think there will be a problem in renewing, though, do you, with 
whoever your successor is?
    Mr. Reilly. No, I don't. But I should tell you what our 
strategy is, and we have shared it with everyone. The 
termination of the leaks and how we go about this and who pays 
for it and who has responsibility in finding a solution is 
going to go a long way.
    We have indicated that if we get by that point, we are 
willing to enter into negotiation for a global settlement for 
all of the cost recovery efforts, if we get beyond that. If we 
do not, the likelihood would be litigation, which would be 
costly and very time-consuming. So, you know, I am not ruling 
out that these matters can be resolved.
    The reason we stepped up here is I think you need, I think 
the American people need, the taxpayers need Massachusetts' 
decisions. A decision in an office and someone that is willing 
to accept responsibility for those decisions, and then what 
will come will come, and we will accept that. But that is what 
we are trying to be about.
    We are trying to get into a point where we can make 
decisions, good decisions, fact-based decisions. And I agree 
with you that this is beyond politics. This is far beyond and 
far too important for politics. It involves the future of this 
State in terms of not just the immediate project but other 
projects that are coming down the road. I take that 
responsibility very seriously.
    We will work in a bipartisan fashion, both the Federal and 
State officials, and with the Governor's office. You want 
results, and we are going to try to give you those results. And 
then people can measure them at the end.
    Chairman Tom Davis. Sure. Let me ask another question. The 
individuals who approved the payments--I think, Mr. Mead, we 
talked about how close everybody was up here. The contractors 
were close to the people that were overseeing it, and how 
really outside the box--how unusual it is for people to just 
approve these change orders and not really get resolved who was 
to blame and what was within the scope of work, and that kind 
of thing.
    We don't know yet if there is evidence of collusion. But is 
it possible, as we look back at these payments that were 
approved, is--if we find evidence of collusion or somebody 
acting in an ultravirus way of approving things they shouldn't 
have and money went out the door, that individuals could be 
held responsible who were in basically the State or Federal 
lines of authority?
    Mr. Mead. Yes. This project has been remarkably scandal-
free from the standpoint of hard evidence of criminal activity 
at least to date. I think that this project, when it started, a 
lot of hard questions that should not--should have been asked 
were not asked. A lot of change orders were approved, that had 
the project been properly scoped to begin with, I don't think 
they would have--I don't think they would have occurred.
    I don't think the jury is in yet on whether--the extent 
of--that we might find malfeasance on this project. You know, 
the tail on this project of claims was--I mentioned the $400 
million. That is going to take some time to resolve, long after 
the project is complete.
    Chairman Tom Davis. I understand. General Reilly, would you 
agree? As you look at some of these--some of the approvals that 
were given early on for these change orders, you are going to 
be looking behind it. Are you going to be looking for evidence 
that maybe people were--I don't want to say on the take, but 
the closeness of the people involved in this, is that going to 
be a factor as you look at this?
    Mr. Reilly. Obviously, it will be a factor. But you have to 
bear in mind the very structure of this project, the way it was 
organized, integrated project management encouraged that type 
of----
    Chairman Tom Davis. Collegial.
    Mr. Reilly. Now, people did not think this thing through 
when they set up this structure, because now we are at the 
point where we are allocating and determining accountability 
and responsibility, and that is very difficult under the 
organizational setup. And if there are lessons to be learned, 
that is one of them. I am not sure you want to do this again on 
a project of----
    Chairman Tom Davis. Right.
    Mr. Reilly [continuing]. Of this magnitude. But, again, 
this is one of the things that we will have to deal with, but 
that is a lesson that should be learned.
    And the last thing, in terms of some of the liability 
limitations, in terms of capping that, the insurance situation 
in terms of the amount of insurance for a project of this 
magnitude, it is totally unacceptable. And we will be speaking 
to that down the road, and I am sure you are aware of it and 
you will want further briefings. But there are a lot of lessons 
to be learned.
    Chairman Tom Davis. Was that partly Federal responsibility, 
the fact that the insurance levels, the bonding was so low?
    Mr. Reilly. Well, I think on both--you know, it is a shared 
responsibility.
    Chairman Tom Davis. OK.
    Mr. Reilly. But there are insurance problems in terms of 
the amount; $50 million obviously is not sufficient. There is a 
gap in that because of the failure of Reliant. That is a 
problem. There are a lot of problems, but they need to be dealt 
with.
    Chairman Tom Davis. I understand.
    Mr. Reilly. And we are going to try to do it.
    Chairman Tom Davis. Thank you.
    Mr. Mead. And, you know, you asked about--this is not--this 
is not something I would characterize as collusion. I know you 
would be interested in this point. This project had an 
insurance program where they would bill the Federal Government 
for premiums, and it is an allowable expense under the Federal 
law to pay the premiums, a certain percentage of them.
    It turned out that after we were billed that the insurance 
company would notify the project that the premium for the 
period that we had paid for was not as high as had been billed. 
That they had--and that was an annual review they would do of 
the claims experience and they said, ``So the premium isn't as 
high.''
    And an arrangement was in place on this project where those 
premiums were retained and put in a trust account where they 
accrued interest. And the Federal Government was not aware of 
this particular arrangement.
    In effect, I think they had an insurance program in place 
here where we were paying premiums for insurance billings, and 
we should have been refunded a great deal of the money that was 
kept in a trust account. That wasn't evidence of collusion, but 
I think it was evidence of an impropriety.
    Chairman Tom Davis. Yes. I am sure the attorney general 
will look at that, among other things. Is that----
    Mr. Reilly. We will take whatever information that is----
    Chairman Tom Davis. OK.
    Mr. Reilly [continuing]. That we have, and then call it as 
we see it at the end.
    Chairman Tom Davis. OK. My last question--Mr. Gee, with the 
number of leaks and the type of leaks in a tunnel, with the 
engineering issues of this complexity, is it about normal? Is 
it more leaks than normal? Is it fewer leaks? I mean, how would 
you take a look at how it is complied from an engineering 
perspective and the construction basis, with what would be 
expected? I am not talking about the cost overruns. I am just 
talking about the performance.
    Mr. Gee. Well, I guess that answered two parts. As we 
talked about--the picture you saw here, we would not expect 
that to happen. That is clearly a problem, and that was a--I 
would characterize that as a construction defect.
    Chairman Tom Davis. That is a good answer, yes.
    Mr. Gee. A latent defect. [Laughter.]
    But we do expect some type of water to get in. When you 
build tunnels underwater, that is expected. The concern we 
would have in the long term is that water doesn't lie there and 
corrode the steel. That is when it becomes a problem.
    Through our research, we have indicated--and we use as a 
gauge about 1 gallon per minute per thousand feet of tunnel as 
a rough estimate of the amount of water that we would expect 
that wouldn't be a problem. But even that amount could be a 
problem if it is left to corrode the steel. OK? So it is not 
actually the number of leaks, but the amount of water that 
could penetrate the tunnel and sit and allow it to corrode the 
steel. That would be a concern.
    Chairman Tom Davis. And what you are saying is today--you 
think after you are through with everything you are going to 
probably render a decision that the tunnel is safe. But we 
don't want to be back here in 10 years looking at a $5 billion 
repair bill because of things that have corroded and----
    Mr. Gee. No. We would expect through a maintenance and 
inspection program that any water that does come through would 
be a minimal amount and would not cause any problems, 
corrosion-wise or safety-wise.
    Chairman Tom Davis. What are the maintenance costs for the 
tunnel? Do you have any idea?
    Mr. Gee. No. I really do not. That would be something that 
I think the next panel, the Turnpike Authority----
    Chairman Tom Davis. OK.
    Mr. Gee [continuing]. Would be able to answer.
    Chairman Tom Davis. Thank you very much.
    Mr. Lynch.
    Mr. Lynch. Just a followup, Mr. Gee. You said that you 
thought that this tunnel was placed under the National Bridge 
Inspection Program. Is it, or isn't it? I was told that it was 
earlier, but----
    Mr. Gee. No. What I--excuse me if I state something 
incorrectly, or misstate. We are proposing to institute a 
tunnel inspection program similar to our National Bridge 
Inspection Program.
    Mr. Lynch. OK.
    Mr. Gee. The bridges on this project are subject to the 
bridge inspection program.
    Mr. Lynch. Right. Right. But you were going to include the 
tunnel----
    Mr. Gee. Right.
    Mr. Lynch [continuing]. Which is not necessarily required, 
but under the circumstances is a good idea?
    Mr. Gee. Right. Actually, the Turnpike Authority has been 
proactive in helping us design such a program, because of the 
complexity of this project and the scale of the project.
    Mr. Lynch. OK. Thank you. Attorney General Reilly, can you 
give us a snapshot on--I understand this is ongoing litigation, 
so you can't really--I wouldn't want you to disclose anything 
that might undermine your negotiating position with respect to 
cost recovery cases that you took over from Judge Ginsburg.
    And I understand that for the first 8 years of this 
project--there was a cost recovery program instituted in 1994. 
And up until 2002, it had recovered a total of $35,000, is that 
what we are saying? $35,000?
    Mr. Mead. Yes, sir.
    Mr. Lynch. And we are at about--it was about----
    Mr. Mead. I was $5,000 off before. Let me correct the 
record. It was $35,000 not $30,000.
    Mr. Lynch. All right. And we are up to--on a project at 
that point that was $10.8 billion. So we had recovered $35,000.
    And then, Judge Ginsburg came in under the directorship of 
Mr. Amorello. Now you are taking the cases that were begun by 
the Judge, and also you are handling any other aspect of 
recovery that we might hope to succeed in.
    Mr. Mead. Yes, sir.
    Mr. Lynch. All right. Can you give us a--without, again, 
divulging any sensitive information regarding the liability of 
certain lawsuits, could you give us a snapshot of where we are 
today?
    Mr. Reilly. Yes. One lawsuit has been stayed that had to do 
with financial management. That lawsuit has been stayed.
    Mr. Lynch. Stayed on your part.
    Mr. Reilly. Stayed on our part.
    Mr. Lynch. In other words, you made a determination that it 
was not viable and you pulled back.
    Mr. Reilly. No. We made a determination to hold on that 
case to see where the overall effort goes.
    Mr. Lynch. OK.
    Mr. Reilly. There are other--some eight section design 
lawsuits that are in effect. Those are going forward. I think 
the first one is scheduled for trial later this year, but they 
will proceed on a regular basis.
    The strategy here is that we will either come to some 
resolution on the leak situation, both short term and long 
term, and allocate a dollar figure to that we believe is fair 
to both the Federal Government and the State government and the 
taxpayers, or this is headed for litigation, all of it, 
including the potential for additional lawsuits.
    But we are--we believe it is in everyone's interest to 
resolve this matter if we can, but with no expense to any 
taxpayers and to recover as much money as we can. What that 
time table will be, I can't promise you that, but----
    Mr. Lynch. OK.
    Mr. Reilly [continuing]. We would set a date on that, 
except that we are--we are proceeding with the leaks as No. 1. 
No. 2, we are setting up a structure for a global negotiation, 
if we get beyond this point. If it goes that way, it will go 
that way. If it doesn't, it is headed for litigation that will 
be very costly, and it will be long term.
    Mr. Lynch. All right. Well, that is in your hands, and it 
would be overreaching on my part to suggest how you might do 
it. But as an editorial comment, I would just like to say that 
settlement, if it were to occur, or the litigation were to 
occur, would depend greatly on the assessment of real damages 
within the tunnel and how much water we have in there and the 
prospective maintenance costs that we--the delta between what 
we should have had with the tunnel as it was advertised and 
what we end up with at the end of the day. That should be a 
factor in those settlements.
    And all I am saying is that there is a pretty good audit 
going on right now, and I would just--my own--and, again, I 
don't want to influence you, but I would not enter into any 
negotiations with these folks until we get all of that 
information.
    And, you know, based on what I have seen so far and the 
lack of willingness to negotiate in good faith, I would just 
say, you hang tough, and we are with you. And we realize that 
you didn't have to take on this case, and that you did it out 
of a spirit of good government and protecting the taxpayer.
    I have a bad feeling about this. I think that the numbers 
that we are seeing here for--you know, just counting heads down 
in that tunnel, the number of people that are fixing those--
that are plugging those holes, and the number of leaks we have, 
and it didn't get any better this summer than it did last 
winter, I just think we have a whale of a problem down there.
    And I would just not want to settle short and then end up 
with a huge bill later on behalf of the--you know, the 
taxpayers of the Commonwealth.
    Mr. Reilly. I am in total agreement with you, Congressman. 
There will be no settlement, and there will be no detailed 
negotiations until we get the information that we need to make 
an assessment whether the problem has been fixed, to what 
extent it has been fixed, whether there are long-term 
maintenance, and what is that going to cost. And until we get 
to that point, we are not going far.
    We expect them to do the job that they were paid to do. And 
until they do that--there is an old saying, if you broke it, 
fix it.
    Mr. Lynch. Right.
    Mr. Reilly. Fix it, and step up and take responsibility for 
it, and pay for what you broke. And then we will move on. If we 
don't get to that point, then there will be no negotiations.
    Mr. Mead. Congressman Lynch, I would just like to 
supplement----
    Mr. Lynch. Sure.
    Mr. Mead [continuing]. Or amplify on something you said. In 
my statement, you will notice that we stress some cautionary 
notes about running to the bank with a $17 million estimate. I 
think that when we first started hearing about----
    Mr. Lynch. Now, let us--just for clarity, the $17 million 
is regarding leak----
    Mr. Mead. There was an earlier----
    Mr. Lynch [continuing]. Patching or waterproofing, right?
    Mr. Mead. Yes. And patching and--the early estimates were 
that, well, $7 million had been paid to fix leaks, and 
another--there might be another $10 million out there. And our 
testimony deliberately expresses some cautionary notes on 
taking that figure and running with it, and that is because, as 
you know, we have been working with the Artery and the 
Governor's office and the Federal Highway Administration to 
have Deloitte & Touche do an audit of the costs. They are 
reporting in mid-May.
    Now, I think a lot of people with these leaks--their frame 
of reference is somehow the month of September in 2004. But if 
we all remember, in 1997, the Artery set up a task force called 
the Waterproofing Task Force. There was a reason they did that 
in 1997. By the year 2000, that task force was called--there 
was a new task force, and this one was called the Leak Task 
Force.
    So we started out with a waterproofing one in 1997; in 
2000/2001, we had a leak task force. So the costs associated 
with this--the cautionary note I am raising here go back longer 
in time than we had initially thought.
    Mr. Lynch. Right. And, you know, I noted that in my notes, 
that in the reports we are reading at some point in time--and I 
am not sure what precipitated that--but the Waterproofing Task 
Force became the Leak Task Force. And, you know, it begs the 
question.
    One thing I wanted to ask both of you, it seems that in 
this long-term construction schedule--and this goes back--this 
is about 16 years that it spanned where we have had people 
actually on the site on this project. It was always my 
understanding that, well, on the average project, usually the 
completion of the job triggered the statute of limitations.
    But I understand, now that you are explaining it to me, 
that phases of this contract were completed years ago, and that 
the statute of limitations was too old on some of these--some 
of the aspects of this.
    It would make sense, don't you think, for Congress to have 
a special statute of limitations for work performed on long-
term construction projects like this? Say, that they would go 
on beyond 8 years or 7 years, or some longer period of time 
that would not be properly addressed by the normal statute of 
limitations under contract law.
    Mr. Reilly. A couple of things on the State side, and it 
certainly is worth looking at on the Federal side. The State 
statute of limitations has been extended for this project. We 
expect that to be contested, and that is--that will be an 
issue. But, you know, this business should have been taken care 
of, and we are all dealing with something very late in the 
game.
    Mr. Lynch. Right.
    Mr. Reilly. And we shouldn't have to deal with the 
situation we are dealing with. But the State--on the State 
level, there is a State law that extended the statute of 
limitations to allow us to proceed.
    Mr. Lynch. All right.
    Mr. Mead. I would have to get back to you on the statute of 
limitations. But what was fundamentally wrong here is their 
closeness. Any project of this size--in fact, even smaller 
projects--there ought to be an independent part of the project 
that is watching.
    What you had here is you had a partnership between Bechtel/
Parsons Brinckerhoff and the Artery management. And now the 
Commonwealth is trying to get recovery against Bechtel/Parsons 
Brinckerhoff, who has been partners all these years with the 
Commonwealth of Massachusetts.
    So I think that you needed to have more checkers in place 
from the beginning on all these change orders that we are now 
going back and saying, ``Well, should we have paid these or 
not?'' You should have had an apparatus in place then.
    Mr. Lynch. Right.
    Mr. Mead. That is a lesson learned. I don't want to keep 
coming back to the Wilson Bridge, but that is one of the things 
that the Wilson Bridge started doing right from day one. Well, 
not exactly from day one, but shortly after it got underway. 
And I know it costs the taxpayers a little bit of money to have 
some auditors around, but I think at the end of the day we will 
be very happy that we did so.
    Mr. Lynch. I agree. This integrated project organization, 
the IPO, that is sort of the source of a lot of problems that 
we are looking at today, under that--based on previous 
testimony in some of the pre-conference--prehearing 
conferences, it was Bechtel's responsibility to report to the 
Turnpike Authority.
    But since they were so close that in many ways that 
reporting was internal, because their organizations were 
blended. And there was no reporting to an independent--as you 
describe, an independent agent on behalf of the taxpayer. And I 
was mystified that there is no requirement that there be an 
independent agent there that gets reports on a monthly or 
biweekly basis, so that they can track the project on behalf of 
the taxpayer, because that is who is ultimately paying the bill 
here.
    And I am just wondering if there is any office or any 
structure that you are aware of that would allow us to provide 
that parallel reporting requirement, so that it is not all in-
house. Either of you gentlemen.
    Mr. Mead. Well, no, I am not aware of an explicit such 
arrangement. I think perhaps there ought to be one. You do have 
the Federal Highway Administration.
    Mr. Lynch. Right.
    Mr. Mead. These people are getting taxpayer dollars. I 
mean, they are getting a lot of money from the Federal 
Government, and I don't think it is inappropriate to establish 
some reporting line. And you can go back in history on this 
project, and Bechtel/Parsons Brinckerhoff knew and did go and 
brief the head of the Central Artery about where the costs were 
headed on this project.
    Mr. Lynch. Right.
    Mr. Mead. And it sure would have been nice in--with the 20/
20 hindsight we have today, if Bechtel/Parsons Brinckerhoff had 
come to my office at that time, or come to the Federal Highway 
Administration and said, ``This project is headed north to the 
neighborhood of $13 or $14 billion.''
    Mr. Lynch. Right.
    Mr. Mead. But that did not happen.
    Mr. Lynch. OK. Well, that is maybe something we can address 
in the regs with the Federal Highway Administration.
    Thank you, Mr. Chairman. I yield back.
    Chairman Tom Davis. Thank you. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Gentlemen, I would like to just pursue--I mean, one of 
the--I am not an engineer, and I know that the next panel is 
supposed to be a little bit more technically oriented, except 
for Mr. Gee. But nonetheless, the engineering parts are one 
thing, and that is what the attorney general is going to do 
over the next several months or years, try and determine who is 
responsible for what engineering issues.
    In the final analysis, though, let us assume that you find 
somebody is responsible for something. There has to be money on 
the table, and there has to be money to get. And in my limited 
experience, there is two places to go. No. 1 is holdbacks, 
money that was not paid to the contractors pending whatever 
negotiations you have. And No. 2 is to the surety bonds, which 
every major contract is supposed to have. I don't know if it is 
a regulation, but it certainly should have, never mind whether 
it is required or not.
    And I guess I have a couple of questions, and my guess is 
that they would be addressed both to Mr. Mead and Mr. Reilly, 
most importantly. Are you satisfied now that either there are 
enough holdbacks on this general project to address, if not 
every dollar, you know, the bulk of the--well, and I know that 
some of these--much of these costs haven't been estimated. But 
are you comfortable with the percentages?
    As I understand it right now, the Federal Government is 
just holding I think it is $81 million. That is 1 percent of 
the Federal dollars. So, in my mind, I mean, my uneducated 
mind, that is not enough. But it is what we have.
    And as I understand it--and, again, I would like to be 
corrected, I am not the insurance expert. But as I understand 
it--and I think, Mr. Attorney General, you just mentioned it, 
that Bechtel/Parsons Brinckerhoff only has $50 million, with 
$10 million not even necessarily there, probably more like $40 
million worth of insurance on this issue.
    And Modern Continental, which, first of all, doesn't exist 
anymore, but the company that has taken them over, I guess as I 
understand it, picked up their insurance, which is $252 
million, but that $252 million, as I understand it, may be 
subject to claims on Route 3, may be subject to claims in a 
Long Island project that may take up the whole thing, and 
probably other projects that Modern Continental is involved in.
    And I guess, No. 1, are you satisfied that the numbers of 
dollars that are available to settle these issues are there? 
And, No. 2, are you looking at both the surety bonds, the other 
contractors, not just Modern--that is the big one at the 
moment--the subcontractors, the manufacturers--I mean, we have 
items that were manufactured, both roofing materials that may 
or may not come under scrutiny, some of the computer and some 
of the software issues and some of the intelligent 
transportation issues, etc.
    And I guess for me, are you satisfied at the moment that 
the money is there on the table? Subject to debate and 
liability and lawsuits and negotiations, is it there for us to 
get?
    Mr. Reilly. I can't say that at this point. I can tell you 
right now there are serious questions on the insurance, on the 
amount of insurance, and there is a gap in that insurance 
because of the failure of Reliant. And that is a problem.
    In terms of what money will be available from what source, 
we are currently exploring that. But I can't represent to you 
right now that there is enough money that we are going--there 
is money that is being withheld by the project. Whether or not 
that will be--that will be enough in total to resolve these 
claims, I can't tell you that right now. I can tell you that we 
are looking at every source and every potential source.
    And as I said, and as--there are bottom lines in all of 
this, and, yes, there are problems with the setup and the IPO 
and all of that. But we feel, and we feel very strongly, that 
the ultimate responsibility here lies with Bechtel. And we 
intend to hold Bechtel accountable, and they have represented 
to the public that they are willing to accept responsibility 
for what they did, and let us see.
    Chairman Tom Davis. Will the gentleman yield? And I guess 
the question is that if the bond money isn't there, or if the 
money hasn't been held back, you can sue them directly, 
correct?
    Mr. Reilly. Pardon?
    Chairman Tom Davis. You could sue them directly and ask for 
the money back.
    Mr. Reilly. Yes.
    Chairman Tom Davis. You always have that option.
    Mr. Reilly. Yes. Yes.
    Chairman Tom Davis. And, of course, GSA or Federal Highways 
or anybody else always has the threat of debarment. There are a 
lot of--depending what you find, there are a lot of ways to get 
the money. It is not as easy as if we had the bond, as I think 
Mr. Capuano indicated. If you had the bond, or you were holding 
money back, it is a lot easier. But----
    Mr. Reilly. It is a lot easier.
    Mr. Davis [continuing]. We are not without having some 
remedies here.
    Mr. Reilly. We have some remedies, and I believe very 
strongly that it is----
    Chairman Tom Davis. Good question, though.
    Mr. Reilly [continuing]. In everyone's best interest to 
step up here and accept responsibility for what they did and 
pay for what needs to take place in terms of fixing this 
problem. I believe that, and we will see. They made those 
representations; we will see.
    Mr. Mead. I concur with the attorney general. There is a 
thing called a retainage, that the Artery does have some 
retainage accounts for some of these contractors. Like Modern 
Continental, there is a retainage account. My recollection is 
that there is $15 or $20 million in it. But that probably--I 
don't know how sufficient that is going to be.
    I do not believe in the case of Bechtel/Parsons 
Brinckerhoff that there is a retainage account. But the 
chairman is right; I mean, there is any number of different 
avenues for getting the money. The $81 million is what the feds 
owe the Commonwealth. You know, it is just money that is owed 
the Commonwealth. And by law, it will go to the Commonwealth 
when they get their finance plan in order, which I hope is 
soon.
    Mr. Capuano. I hope so as well. I understand that there are 
other routes to take, but we all know that those routes get 
more difficult, particularly when you are dealing with the 
largest general contractor, the one with the most questions, at 
the moment is bankrupt.
    And you are going to have to get in line, unless--I can't 
imagine we have a priority here somewhere that I am--and, 
again, I am not an expert in any of these things, but I am not 
aware that we would have any priority ahead of any other debtor 
or claimant against Modern Continental.
    And if they are gone, that is my biggest concern. I mean, 
that is why I asked about subcontractors and other contractors, 
especially, as I understand it, this particular--the major 
breach that we are talking about, the one that everybody likes 
to show on TV, that was Modern Continental.
    I understand they were the largest contractor on the 
project, and that is why--that is the main reason I asked the 
question is because, with them bankrupt, that adds a whole 
other layer of serious questions as to whether we will ever get 
the money, never mind the judgments.
    Yes, Mr. Gee.
    Mr. Gee. The only thing I would add is that on each 
contract they have a surety bond. So if they default on one, it 
might not affect the Route 3, because they have a separate bond 
on Route 3.
    Mr. Capuano. I understand. I guess maybe I wasn't clear, 
but one of my concerns is, for the sake of discussion--again, I 
am no expert, but it just strikes me that a $50 million--well, 
it is not a surety bond, but a de facto surety bond, on 
Bechtel/Parsons is pretty small for a company that made--
correct me if I am wrong--in the $2 billion range, which, fine, 
if the project works, maybe they are entitled to $2 billion.
    But if you have $2 billion--I know that if a guy were 
building me a $2 billion house, I would want a little bit 
higher insurance rate than $50 million. And if that is all that 
is there, to me it is not whether they have it or not, it is 
how much.
    And I understand that the attorney general would be the one 
hopefully that will pursue our interest to determine how much 
is ours. But if he gets a settlement for--pick a number, $100 
million--if it is there in the surety, we don't have to go 
through the next rigmarole of trying to sue the individual 
company that may or may not have bank accounts. Who knows 
whether they are in Switzerland. I don't know any of those 
things.
    But we all know that if it is in a surety, it is a lot 
easier. And I know I, for one, am tired of this whole dance, 
and we all want it over. And when it gets time to get it over, 
I don't want to have to go through another 10 years of chasing 
the money. But I guess we are where we are, and that is why I 
wanted to ask those questions.
    Thank you.
    Chairman Tom Davis. Very good questions. Thank you all very 
much. I think this has been very illuminating for us.
    Mr. Lynch. May I ask one last question?
    Chairman Tom Davis. OK. Mr. Lynch wants the final question.
    Mr. Lynch. You know, it just kind of stuck in my head, you 
were describing--Inspector General Mead, you were describing 
this transaction where the Authority was overcharged for 
insurance, and they got a rebate back. They got the money from 
the Federal Government, right?
    Mr. Mead. I was----
    Mr. Lynch. Paid their insurance.
    Mr. Mead. Yes. The government----
    Mr. Lynch. Then, the insurance company says to them, ``You 
overpaid. Here is a chunk of money back.'' I don't know how 
much money that was. They put it in a trust account, and then 
you never said what they did with the money in the trust 
account.
    Mr. Mead. Right. In fact, they had this accounting 
technique--I think it is an accounting gimmick--where the 
actual cost of the Artery, say just hypothetically, was known 
to be $10 billion. But if there was $800,000 of interest in 
this account, they would deduct the $800,000 and say, ``Well, 
the project is only really costing $9.2 million instead of $10 
million.''
    Mr. Lynch. So it was a setoff. They are using it that way 
anyway.
    Mr. Mead. Yes. I mean, and later on, as I think Bechtel/
Parsons Brinckerhoff notes in its testimony, they had to make 
an accounting adjustment where they had to reflect the fact 
that all of this money had accrued in this insurance trust.
    Mr. Lynch. Any idea how much money we are talking here?
    Mr. Mead. It might have been in the neighborhood of close 
to $800,000 or $900,000--$800 or $900 million.
    Mr. Lynch. $800 or $900 million?
    Mr. Mead. It might have been in that neighborhood.
    Mr. Lynch. You guys want to confer on that?
    Mr. Mead. It is not there now.
    Mr. Lynch. Right. No, no.
    Mr. Mead. I mean, they fixed it.
    Mr. Lynch. But----
    Mr. Mead. But I do think that it resulted in a fairly large 
accounting adjustment to reflect the change in the cost of the 
Artery--it might have been in the neighborhood--my recollection 
is it was around $1 billion.
    Mr. Lynch. Around $1 billion.
    OK. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you, this panel, very much. It 
has been very illuminating for the committee, and I appreciate 
your time. We will take a 2-minute recess as we move to our 
next panel.
    [Recess.]
    Chairman Tom Davis. We have Chairman Matthew Amorello, who 
is the Massachusetts Turnpike Authority, the entity charged 
with overseeing the Big Dig. Thank you very much for being with 
us. We have John MacDonald, chairman of the Board of Control 
for Bechtel/Parsons Brinckerhoff, the management consultant for 
the project.
    Mr. MacDonald, you are accompanied, I understand here, by 
Mr. Morris Levy, the senior vice president at Parsons 
Brinckerhoff, and Keith Sibley, the program manager for the 
project. Thank you all for being with us.
    And we also have Mr. George Tamaro, who is a partner at 
Mueser Rutledge Consulting Engineers, and a former engineering 
consultant for the Big Dig. Mr. Tamaro's extensive experience 
in slurry wall technology and major infrastructure projects 
provides valuable insight to this committee's oversight 
efforts.
    It is our policy we swear everybody in before you testify. 
If you would rise with me, raise your right hands.
    Let me just identify the people in the back row who may be 
called on, so we can get your names on the record.
    Mr. Swanson. Mike Swanson, chief of operations and chief 
engineer for the Turnpike Authority.
    Chairman Tom Davis. Thank you.
    Mr. Lewis. Michael Lewis, project director for the CA/T 
project.
    Ms. Breen. Marie Breen, CA/T chief counsel.
    Mr. Wiley. Matt Wiley, former program manager.
    Chairman Tom Davis. Thank you.
    Mr. Lancellotti. Tony Lancellotti, former engineering 
manager.
    Chairman Tom Davis. OK. Thank you all for being with us. 
Now I am going to swear you in.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Mr. Amorello, we will start with you. You have a key role 
in this. If you need to take more than 5 minutes, we certainly 
understand. But your entire testimony is in the record.

  STATEMENTS OF MATTHEW J. AMORELLO, CHAIRMAN, MASSACHUSETTS 
TURNPIKE AUTHORITY; JOHN MacDONALD, CHAIRMAN, BOARD OF CONTROL, 
   BECHTEL/PARSONS BRINCKERHOFF, ACCOMPANIED BY MORRIS LEVY, 
SENIOR VICE PRESIDENT, PARSONS BRINCKERHOFF, INC., AND KEITH S. 
 SIBLEY, P.E., PROGRAM MANAGER, CENTRAL ARTERY/TUNNEL PROJECT, 
 BECHTEL/PARSONS BRINCKERHOFF; AND GEORGE J. TAMARO, PARTNER, 
              MUESER RUTLEDGE CONSULTING ENGINEERS

                STATEMENT OF MATTHEW J. AMORELLO

    Mr. Amorello. That is great, Mr. Chairman.
    Mr. Chairman, I have a brief opening statement. I would 
like to read it into the record.
    Chairman Tom Davis. That would be great. Thanks for being 
with us.
    Mr. Amorello. Mr. Chairman, welcome to Massachusetts. 
Welcome home to Congressman Lynch and Congressman Capuano.
    My name is Matthew Amorello, and I am the chairman of the 
Massachusetts Turnpike Authority. I welcome this opportunity to 
appear before you to discuss the current management of the 
Central Artery/Tunnel Project and the steps we are taking to 
ensure that this project fulfills its promise to the citizens, 
taxpayers, and tollpayers of this region and the Nation.
    My mission upon taking office a little over 3 years ago was 
challenging, and I come here before you today to say that I 
believe we have met those challenges and continue to meet them 
on a daily basis. My first mission was to bring order and 
stability to a demoralized and chaotic Turnpike Authority.
    We have done that, and today's Turnpike Authority is a 
well-organized, efficient, and highly motivated public 
authority focused on delivering quality service to the people 
of Massachusetts in a cost-effective manner. In fact, Moody's 
Investor Service has said that the turnpike ``Board has shown 
strong commitment to rebuilding the Authority's financial 
position.''
    My second mission was to maintain the costs of this project 
and restore credibility to our financial management of the Big 
Dig. Again, I am pleased to report that we have accomplished 
these goals. This project, like all public projects, must be 
conducted in a transparent and forthcoming manner. I have made 
every effort since becoming chairman to ensure that our Federal 
and State partners and overseers have received all of the 
information they need, when they need it, in order to do their 
jobs effectively.
    The project's budget today is exactly the same as it was 
when I took office--$14.625 billion. I think it might be useful 
to briefly review where and how these funds were spent. 
Approximately $6 billion was for the extension of the I-90 
interstate, including the Ted Williams Tunnel and Four-Point 
Channel Tunnel, which now connect the Massachusetts Turnpike 
directly to Logan Airport and points north, diverting traffic 
away from downtown Boston. This part of the project has 
dramatically cut drive times to Logan and decreased traffic in 
the central corridor.
    Approximately $8 billion has been spent building the new 
tunnel and ramps from Charlestown and Interstate 93 to the 
Tobin Bridge and Route 1, the Zacamb Bridge, and the ramps 
connecting Sturrow Drive and Interstate 93, and, of course, the 
construction of the I-93 tunnels, which are still being 
completed beneath the city.
    This project has expanded capacity and eliminated a 
dangerous choke point for the motorists traveling through the 
city. It is expected to reduce carbon monoxide levels in the 
metropolitan Boston area by 12 percent, and has removed the 
elevated highway which for 50 years separated the city's 
financial and historic centers from its waterfront and several 
of its neighborhoods.
    In addition to holding the budget, we have taken several 
initiatives to protect this public investment, including the 
first meaningful effort in the history of the project to 
recover costs for design errors and omissions.
    My third mission was to ensure that the project did not 
lose sight of its primary objective--to replace the old, 
ineffective highway network, which threatened to destroy 
mobility and economic growth in the city and region, with a 
modern, safe, and efficient interstate highway system for those 
who live, work, or visit New England.
    I am pleased to report that we have opened almost every 
major component of this project to the public, who are now 
enjoying the benefits of this important investment. In 2003, we 
met three major milestones that marked the turning point toward 
completion of this project--the opening of the extension of 
Interstate 90, the opening of the Interstate 93 northbound and 
southbound tunnels. The entire project will reach substantial 
completion this fall.
    I note these achievements, because I understand this 
project is often in the news, and the news, as reported, is not 
very encouraging. It is sometimes easy to forget all of the 
positive steps we have taken over the past 3 years.
    The significant strides that have been made to set this 
project back on track, to keep faith with our Federal and State 
stakeholders, and to deliver on the promise of an urban 
interstate highway system, that when completed will be one of 
the marvels of this Nation's long and sustained effort that 
began with President Eisenhower over half a century ago, 
creating a national highway network second to none in the 
world.
    As you came to this chamber today, you no doubt noticed 
that the old elevated highway is gone. It is being replaced by 
the Rose Fitzgerald Kennedy Greenway--a magnificent public 
amenity above ground and a modern, efficient interstate highway 
underground.
    Let me now address two specific areas that are in the 
forefront of our current project oversight efforts. The first 
area concerns the issue related to leaks in the tunnels. The 
second concerns our efforts to establish a meaningful program 
for cost recovery.
    With respect to the issue of tunnel leaks, the first thing 
I need to emphasize is that the tunnels are operating well, 
and, Congressman Capuano, they are safe. Earlier this month we 
received a report from the Federal Highway Administration as 
part of that agency's independent and ongoing oversight of the 
project. Federal Highway affirmed what I have been consistently 
saying; the tunnels are safe and structurally sound.
    Slurry wall breach that occurred last September was an 
unacceptable result of poor workmanship and failed project 
oversight. The responsible parties are being held accountable 
by the Turnpike Authority, and they are undertaking to repair 
the slurry wall in an appropriate manner. After the September 
breach, I ordered an inspection of each of the 2,000 slurry 
wall panels in the I-93 tunnels, and I initiated a weekly 
update on the inspections and the identified defects in order 
to keep the public and our overseers informed.
    This thorough investigation of the entire slurry wall 
system was undertaken to ensure that any additional defects are 
identified and corrected. At our insistence, each contractor to 
date has taken responsibility for identified defects, and is 
correcting those defects at their own expense.
    The FHWA report notes the differences between slurry wall 
defects and the various low-level leaks that are largely 
attributable to the fact that this project is not yet complete. 
Federal Highways' report states, ``The project is adequately 
addressing the tunnel leaks. We have confidence in the plan 
that is being followed by the Turnpike Authority and project 
staff, and we can expect that the work will be completed as 
offered by the Massachusetts Turnpike Authority.''
    Based on some media reports, public perception has been 
that the low-level leaks at the roof wall joints were 
``discovered'' after the September 15 breach. This is false and 
has unfortunately confused two very different issues. On the 
evening news in the Boston area, we routinely see video of the 
September 15 slurry wall breach and hear talk of hundreds of 
leaks, leaving the impression that there were hundreds of 
issues like the breach, which is not true.
    As I have said, the two breaches and more minor slurry wall 
defects are absolutely unacceptable, and the contractors must 
fix them at their own expense. With respect to low-level leaks, 
they are part of an ongoing construction, and contractors have 
been sealing them, doing injection grouting for some 4 years.
    The FHWA report's first finding states that chronic low-
level leaks were noted and expected to some degree due to the 
depth of the tunnel, and the sealing of all leaks is expected 
to be completed later this year.
    I want each of you to be assured that I have insisted that 
project staff and consultants spare no effort to ensure that 
all water infiltration issues are identified and resolved to my 
satisfaction and the satisfaction of the Federal Highway 
Administration as promptly as possible. We are insisting upon a 
high level of attention to detail and quality control, as 
expected by FHWA, in the resolution of these issues. And we 
will continue to be completely transparent with the public and 
our Federal and State partners and overseers as we undertake 
this work.
    We are currently inspecting the entire tunnel system for 
possible points of water infiltration, something that is part 
of our historic ongoing inspection protocol. I have with me 
today the project director, Michael Lewis; the turnpike's chief 
engineer/chief operating officer, Michael Swanson; his deputy 
chief engineer, Helmet Ernst; and John Christian, the technical 
advisor to the Massachusetts Turnpike Authority Board of 
Directors, along with the project chief counsel, Marie Breen 
and other turnpike senior staff, in order to respond to more 
detailed questions that you may have on this subject.
    There are many misunderstandings and false assumptions 
associated with the number and nature of the leaks that we will 
be happy to address in more detail.
    The second area I would like to discuss today is our effort 
to take meaningful steps toward cost recovery. When I became 
chairman, the project had a weak record in recovering costs. I 
moved quickly to correct that. First, I hired the National 
Academy of Engineering from Washington to provide me with an 
objective study and report on the overall status of the 
project.
    Next, I established an independent cost recovery team to 
begin an unprecedented effort to identify areas ripe for cost 
recovery and to take action. Led by a retired Massachusetts 
Judge, this cost recovery team built a strong foundation for 
this ongoing effort.
    The team's work was fully supported by the Turnpike 
Authority, and if I may quote from the team's final report to 
the Federal Highway Administration, ``Massachusetts Turnpike 
Authority Chairman Amorello created the independent team to 
hold the design professionals and construction managers of the 
Big Dig accountable for costs caused by their errors or 
omissions. He backed us up with a substantial budget, which 
gave us the ability to hire world-renowned engineers to assess 
the work and uncover deficiencies, and to hire the legal 
firepower to aggressively prosecute lawsuits.''
    Today, those cost recovery efforts are being ably led by 
our State's chief law enforcement officer, Attorney General Tom 
Reilly. The transition from our cost recovery team to the 
attorney general this February was the right thing to do, once 
a proper foundation was laid.
    I have come to recognize that with a project of this size 
and notoriety, many will second-guess these efforts. But this 
project needs cost recovery oversight by an individual and an 
office of irrefutable independence with the clout to back up 
their work. That is why it was so important to transfer the 
responsibility for cost recovery to the attorney general.
    I believe that Attorney General Reilly's leadership and 
commitment will bear substantial fruit for the taxpayers and 
restore public confidence and our efforts to ensure that we are 
getting what we paid for. He has, and will continue to have, 
our full cooperation with his ongoing efforts.
    Like each of you, I am a public servant, and I take my 
responsibilities very seriously. The work we do will be judged 
in the short term by the motoring public, but it will also be 
judged by the history and by our children and grandchildren.
    I am keenly aware of the obligation to close out this 
project in a way that ensures the delivery of a high-quality 
product that captures full value for our public funding 
agencies, and I am also aware of the generational 
responsibility we have to ensure that this project is completed 
to a standard that will stand the test of time.
    I can assure you that we are working and will continue to 
work day and night to fulfill our responsibilities in this 
regard. We are here today to respond to any questions you may 
have, and I thank you for the courtesy and allowing me this 
opportunity to make an opening remark.
    [The prepared statement of Mr. Amorello follows:]

    [GRAPHIC] [TIFF OMITTED] T1590.032
    
    [GRAPHIC] [TIFF OMITTED] T1590.033
    
    [GRAPHIC] [TIFF OMITTED] T1590.034
    
    [GRAPHIC] [TIFF OMITTED] T1590.035
    
    [GRAPHIC] [TIFF OMITTED] T1590.036
    
    Chairman Tom Davis. Thank you very much.
    Mr. MacDonald.

                  STATEMENT OF JOHN MacDONALD

    Mr. MacDonald. Good afternoon. Thank you for the 
opportunity to appear before the committee. I am John 
MacDonald. And since mid-2001, I have been chairman of the 
Bechtel/Parsons Brinckerhoff Joint Venture. With me, Morris 
Levy, my fellow board member from Parsons Brinckerhoff, has 
been with the board since its inception. And on my left, Keith 
Sibley, who has been with the project since 1988, and has been 
our project program manager since mid-2004.
    In my written statement, I have addressed broad topics of 
interest to this committee, including B/PB's responsibilities 
as management consultant on the Big Dig, the history of project 
costs, and our work with the State to accurately estimate and 
control costs. For the next few minutes, I will focus on 
leakage in the I-93 tunnels and the implications for project 
quality, cost, and schedule.
    As much as half of the water intrusion in the tunnels is 
simply precipitation that enters through openings that remain 
while construction continues. Part of the genius behind the 
original concept of the Big Dig was allowing construction to 
progress while keeping the Central Artery open to the huge 
daily traffic flows.
    And until construction ends and the tunnels are fully 
sealed later this year, water will continue to enter down 
uncovered traffic ramps and through manholes and utility 
conduits. Even so, these tunnels already conform to industry 
norms for water intrusion in completed tunnels. And when 
construction is finished, the I-93 tunnels will surpass these 
norms.
    Only a small percentage of roof wall joints in the I-93 
tunnel shows signs of low-level leaks. We and the MTA 
understood that sealing such seeps would be a normal part of 
the construction process, and that grouting is the industry 
standard practice for sealing these leaks.
    Today, 13 crews are injecting wet locations with high-tech 
grout. The Federal Highway Administration reported this month 
that the process for sealing seeps is effective and should be 
continued through completion of construction in late September. 
Construction contractors who built the tunnel sections 
undertook the responsibility, as part of finishing their job. 
They, and not the taxpayers, will pay for the cost of the 
grouting program.
    Last September an 8-inch hole opened in the I-93 northbound 
tunnel, temporarily flooding two lanes of traffic and closing 
one lane during rushhour before being plugged that evening. 
This wall breach reached--resulted from a series of 
construction contractor errors compounded by inadequate 
oversight.
    We inadvertently missed an opportunity to direct the 
contractor to correct the specific wall problem earlier. We 
have publicly acknowledged our responsibilities, and we will 
pay our fair share of the costs of the permanent repair. We 
have worked closely with the MTA and the contractor to identify 
and analyze permanent repair options. A decision is pending by 
the MTA.
    We are also working vigorously to avert similar problems 
through extensive physical inspection of the tunnel walls and 
thorough review of our records. In fact, we have added 
personnel at our own expense to expedite this process. The 
inspection should be finished early next month, and repairs are 
now underway.
    As we knew from the start, and as Federal Highways recently 
confirmed, all tunnels built below the water table experience 
some seepage throughout their life, including other slurry 
walls in Boston. After the I-93 tunnels are completed to 
standards, future leakage will be controlled by the owner as 
part of a normal maintenance program.
    This program should cost well within industry norms, given 
the tunnel's length and their extensive traffic management and 
safety systems. We are confident that with normal care and 
proper maintenance these tunnels will provide excellent service 
to Boston into the next century.
    In conclusion, our goal is to complete this project as 
quickly and as efficiently as possible. Already this project 
has delivered enormous benefits to the Boston area motorists 
and reshaped the urban landscape of the city.
    We and our dedicated employees are extremely proud to be 
associated with this project, and having brought through 
innovative engineering and management the most complex urban 
project ever undertaken in the United States.
    So, again, I appreciate the opportunity to be here today, 
and we look forward to responding to your questions.
    Thank you.
    [The prepared statement of Mr. MacDonald follows:]

    [GRAPHIC] [TIFF OMITTED] T1590.037
    
    [GRAPHIC] [TIFF OMITTED] T1590.038
    
    [GRAPHIC] [TIFF OMITTED] T1590.039
    
    [GRAPHIC] [TIFF OMITTED] T1590.040
    
    [GRAPHIC] [TIFF OMITTED] T1590.041
    
    [GRAPHIC] [TIFF OMITTED] T1590.042
    
    [GRAPHIC] [TIFF OMITTED] T1590.043
    
    [GRAPHIC] [TIFF OMITTED] T1590.044
    
    [GRAPHIC] [TIFF OMITTED] T1590.045
    
    [GRAPHIC] [TIFF OMITTED] T1590.046
    
    [GRAPHIC] [TIFF OMITTED] T1590.047
    
    [GRAPHIC] [TIFF OMITTED] T1590.048
    
    Chairman Tom Davis. Mr. MacDonald, thank you very much.
    Mr. Tamaro, thanks for being with us.

                 STATEMENT OF GEORGE J. TAMARO

    Mr. Tamaro. Yes, thank you. I would reduce my presentation 
a little bit in the interest of brevity for the committee.
    Chairman Tom Davis. OK.
    Mr. Tamaro. Slurry wall construction is a particularly 
useful technology for installation of underground walls for 
both permanent and temporary construction. It is particularly 
useful in urban environments and difficult ground conditions.
    It, in my opinion, was particularly appropriate for the 
construction of I-93 Central Artery and Tunnel, and perhaps was 
the only technology available. Slurry wall construction--its 
end product, by its very nature, is very rough textured, it is 
an unfinished concrete wall, and the end product is even more 
regular and could be more problematic if attempted by unskilled 
contractors.
    The slurry wall work is started from ground level. It is 
carried down to predetermined depths. The work is done in the 
blind from ground level, and it requires intuition and a good 
deal of monitoring and testing of the process as it proceeds. 
Slurry wall construction can be expected to have some flaws as 
a result of this in the blind process.
    These flaws are usually observed during the general 
excavation when the walls provide temporary support for the 
construction. Defects are usually repaired as the excavation is 
carried downward, and should be completed prior to the 
incorporation of the slurry wall and to the permanent 
construction. This is the procedure that should have been 
followed for the I-93 tunnel.
    Of immediate concern with the I-93 tunnel are the problems 
associated with a number of slurry wall panels. The area of 
concern is the portion of the slurry wall exposed from the top 
of the walkway to the underside of the roof, where a defect in 
the slurry wall would permit flow of water and/or soil into the 
tunnel.
    The defects are primarily in the slurry wall concrete. The 
steel beams that are the vertical spanning members are not 
affected by the defects in the concrete that spans horizontally 
from beam to beam. These structural concrete defects cannot 
remain and must be repaired as uncovered. The portions of the 
slurry wall above the roof and below the roadway are of no 
concern and have essentially been abandoned.
    Field inspection records for one slurry wall panel, E-045, 
indicate that the panel was not constructed in accordance with 
specifications, and, furthermore, the wall was not adequately 
repaired during general excavation. This defective panel 
remained stable until September 15, 2004, when the defect could 
no longer resist the external water pressure.
    The defect in the wall gave way and permitted the flow of 
water and soil into the I-93 tunnel. The defect in the panel is 
currently temporarily protected by wooden wedges, grout, and a 
steel plate. Alternative permanent repair schemes are currently 
under review.
    As a result of the incident of September 15, the project 
engineering team has inspected slurry walls, as we have heard. 
Several major problems have been discovered, and a large number 
of minor leaks have been identified. In addition, due to 
defects in the slurry wall concrete there is a problem of 
leakage at the contact between the roof--concrete roof and the 
slurry wall. At several locations, water has flowed down--
flowed down the face of the wall and onto the roadway, where in 
the winter there is an icing problem.
    There is also potential for corrosion at the roof girder 
connections. This is a long-term problem that has to be 
attended, and we have heard discussions about the inspection 
program that has to be undertaken. These connections are the 
main support of the roof system and will require regular 
inspection and maintenance throughout the life of the tunnel.
    There is currently disagreement on the extent of the leaks 
and whether the leaks will be permanently sealed at the 
conclusion of construction. It is uncertain that a permanent 
sealing of the tunnel roof joint will be fully achievable.
    There has been a lot of discussion about quality, and I 
would like to just make a comment--that there is an old adage 
that states that quality will be long remembered after schedule 
and the costs is forgotten. As a casual observer, I am forced 
to conclude that there has been a tremendous amount of 
potential cost overruns and schedule, and I am concerned that 
it may have had its effect upon attention to quality.
    It is now necessary that the project assure the public that 
quality control issues have been addressed, and that they can 
use the tunnel without concern for their safety. This is going 
to take a bit of time to do. It will not happen overnight, 
because there has been this constant droning of difficulties 
associated with the tunnel.
    Thank you very much for permitting me to testify. If you 
have any questions, I am available to answer them.
    [The prepared statement of Mr. Tamaro follows:]

    [GRAPHIC] [TIFF OMITTED] T1590.049
    
    [GRAPHIC] [TIFF OMITTED] T1590.050
    
    Chairman Tom Davis. So, Mr. Tamaro, how safe is it going to 
be?
    Mr. Tamaro. That is a question I always hesitate to answer, 
because----
    Chairman Tom Davis. Well, you are the independent guy here. 
I mean, you are the----
    Mr. Tamaro. I am not really, because I am not working. I 
have not been working on the project for about 2 months now. I 
can only----
    Chairman Tom Davis. How safe was it 2 months ago?
    Mr. Tamaro. Two months ago, I saw nothing that was of 
concern to me.
    Chairman Tom Davis. OK.
    Mr. Tamaro. The safety question has--it is a difficult one 
to answer, because there are other things that occur within the 
tunnel that could cause concern to the public--the falling of 
debris into the tunnel for an example, which is totally 
unrelated to the question of the structure. The structure is 
safe, in my opinion.
    There may be some leaks occasionally. There are problems 
that have to be addressed. I think that the structural safety 
question is not there. But there can be other problems.
    Chairman Tom Davis. Well, from your work on other large-
scale projects, like the World Trade Center recovery efforts, 
what are the major mistakes that we made here, and do you think 
they are at least technically corrected?
    Mr. Tamaro. I think one of the biggest problems is when you 
have an integrated team, and you do not have someone who is 
very aggressive for that issue that he is responsible for. For 
example, quality control--the quality control issues begin to 
take a second step or begin to take a second role.
    My experience at the World Trade Center was that I was 
responsible for schedule and costs for the construction of the 
slurry wall and the quality of the work. The Engineering 
Department felt that the schedule and costs may begin to take a 
more important element in my thought process, and assigned an 
independent engineering staff to oversee the quality control 
that I was responsible for.
    So I had a totally independent quality assurance group 
overseeing what I was doing, and they had the authority to stop 
the work at any time, if quality was being violated in any way.
    Chairman Tom Davis. OK. Mr. MacDonald, Federal Highways 
rewarded your company with the Excellence in Highway Design 
Award for the Ted Williams Tunnel portion of the project back 
in 1996. And to my knowledge, there have not been leak issues 
in that part of the project that we have seen in the I-93 
tunnel.
    In your opinion, what is the difference between those two? 
Were the specifications and requirements for the I-93 tunnels 
more difficult to complete? Or did we just have some oversight 
issues?
    Mr. MacDonald. I think there are two different types of 
tunnel construction. I think the tunnels leak. The Ted Williams 
Tunnel leaks, but it is within normal industry practice. And I 
think we have with the--you know, with the high profile issue 
that we had on I-93, there has obviously been a lot of 
attention, a lot of media focus, a lot of other focus on the 
slurry wall construction and the I-93 tunnels.
    So I think that is the primary difference--a very high 
profile, a very high----
    Chairman Tom Davis. But the Williams Tunnel didn't have the 
kind of leak that Mr. Lynch put up there in construction, to my 
knowledge. I think that was----
    Mr. MacDonald. I am going to refer that one to my 
colleagues who were here at the time. Keith.
    Mr. Sibley. Thanks very much, John.
    As John said, the tunnels are two different types of 
structures. The I-90 tunnel is what we call a cut and cover box 
tunnel. That is, we excavated a deep trench in the ground, and 
we cast a floor, walls, and roof, all of reinforced concrete. 
As John described, we did have some leakage. There were cracks. 
Certain joints----
    Chairman Tom Davis. You always get leakages below water, 
right? Don't you?
    Mr. Sibley. That is correct. And the leak injection 
program, very similar, slightly different materials that we are 
using on I-93 was used there. I-93 is so different because it 
has the slurry walls. The slurry walls are cast, as my 
colleague Mr. Tamaro identified, in the blind, and you see what 
you get as you then excavate out.
    So it is a different character of a wall to start with, and 
then the floor is joined to those, the roof is joined to those, 
and it is a different detail.
    Chairman Tom Davis. Nevertheless, the kind of leak we saw 
here probably shouldn't have occurred, all things considered, 
should it in a case like that?
    Mr. Sibley. Oh, absolutely correct. I think that has been 
clear, that the breach should not have happened.
    Chairman Tom Davis. OK. And the I-93 tunnel just--it is 
more complex, because of the nature of the slurry. Is that fair 
to say?
    Mr. Sibley. Yes, correct.
    Chairman Tom Davis. OK. Mr. Amorello, you state in your 
testimony that the Authority has opened nearly every component 
of the project to the public, who are enjoying the benefits of 
the investment. At this point, the press has not been that good 
on this issue. A lot of this predates your being there, in 
terms of the cost overruns and everything else.
    What are we doing at this point to keep this process open, 
to keep the public informed, to try to restore that confidence, 
you know, in the project in the future? And, you know, I am not 
up here. I just catch this occasionally, but that one picture 
is worth 1,000 words. And that hole in the I-93 tunnel 
literally blew a hole in the reputation of the integrity of the 
tunnel.
    And I think we have had explanations today for what 
happened, but what are we doing to make sure that doesn't 
happen again, and to make sure that when this tunnel opens it--
when it is completely opened to the public, they are going to 
be satisfied that it is safe?
    Mr. Amorello. Mr. Chairman, I am as upset as every resident 
of Massachusetts that event occurred on September 15. And it is 
repeated almost nightly on the evening news, as I mentioned in 
my testimony. The event was unique, as was mentioned in the 
Federal Highway report. It was an isolated incident. It should 
not have occurred.
    The tunnel system that the public is driving on today is 
safe for them to use. I wouldn't have authorized it, the chief 
engineer or the Turnpike Authority wouldn't have signed off on 
it, nor would Federal highway officials have signed off on 
opening these roadways for the public to use.
    We have taken every step to be transparent in the process 
that we have started. Every last Thursday of the month we give 
a project monthly update on the costs of the project, our 
safety record, our employment record, the status of uses of 
contingency, to keep the public fully informed in terms of some 
of the discussions that were held by the earlier panel.
    Lessons learned--I think clearly that was one of the most 
important lessons that this project implemented after the 2000 
price escalation was in the financial report submitted to 
Washington every year to reassure our partners that this 
price--this budget was real and the budget was holding. And for 
the 3-years I have been chairman, that has been the case.
    And at every--as I said, every last Thursday of the month, 
we have a public meeting, open to the public, where project 
officials come out and discuss the issue of the inspections. 
Every Thursday of the week we provide an update on the status 
of the inspections that we are carrying on.
    Chairman Tom Davis. Let me ask you this. I mean, I hear 
everybody saying, you know, mistakes were made. OK? When did 
the Authority become aware of the construction problems that 
led to that breach?
    Mr. Amorello. The Authority, in a 1999 memo to project 
officials, was circulated with a cc to the public employee in 
charge of that particular construction contract. It is my 
understanding the field records indicated that these steps were 
going back and forth between Bechtel/Parsons and the contractor 
to repair the E-045 breach, and the understanding was that wall 
was repaired.
    The breach that occurred on the 15th, there was no 
awareness on I think anyone's part immediately that breach 
would--or should have occurred given that there was repair work 
done at that site I believe in the year 2000. I could be--stand 
to be corrected on the particular--that particular aspect, but 
there was repair work that was conducted, obviously inadequate 
repair work.
    The breach blew out on the 15th, and turnpike officials, 
Bechtel, and our contractors immediately stepped in to repair 
it. And we are now in the process of evaluating the correct 
method for repair. I brought on board John Christian, an MIT 
engineer, geotechnical engineer, and a member of the National 
Academy of Engineering, a Massachusetts resident, to advise and 
consult me on the repair method.
    We have also recently retained STS out of Chicago, Clyde 
Baker who is also here today, to evaluate the repair method 
that we put in place. Inspector General Mead was very clear 
when he and I have had several meetings in the last many months 
talking about the repair method that we put in place, and to 
make sure the public is assured that we have done everything 
possible to make this wall safe and secure for the longevity of 
the tunnel system.
    These engineering experts that we have brought on, along 
with turnpike staff--Mike Lewis, Mike Swanson, and Helmet Ernst 
from the public side--to review the final proposal for the 
repair method.
    Chairman Tom Davis. Right. And it is going to be a whole 
series of inspections, obviously, before it is finally opened 
to the public at that point.
    Mr. Amorello. Correct.
    Chairman Tom Davis. You never know what you will find, but 
at this point there is--things seem to be on track.
    Mr. Amorello. Correct.
    Chairman Tom Davis. Mr. MacDonald, what do you think--can 
we talk more specifically about what happened on that major 
leak in September?
    Mr. MacDonald. Yes, sir, we can.
    Chairman Tom Davis. What happened?
    Mr. MacDonald. What happened? You go back to the 
construction reports at the time that panel was poured. There 
were several things identified on those construction reports 
that should have signaled--well, they shouldn't have happened. 
They should have stopped the work. That is No. 1. No. 2----
    Chairman Tom Davis. Who was asleep at the switch? Was it 
both--was it the State? Was it you all? Was it a subcontractor? 
Was it a little bit everybody? Federal Highways?
    Mr. MacDonald. It was the contractor and Bechtel/Parsons 
Brinckerhoff. So that was mistake one, allowing the panel to be 
poured with the deviations that were identified during the 
construction process.
    The report, then having identified those things, went up 
the chain through the resident engineering process, and that 
was the second opportunity to catch those things, that 
something here was amiss. And a flag should have gone up, and 
that should have resulted in a very focused, very specific 
inspection of that panel as the Artery was excavated. That 
didn't happen.
    The contractor, then, self-reported the issue when it 
discovered a leak, as when the wall was uncovered and water 
intrusion came in, and brought it to our attention.
    Chairman Tom Davis. Now, was this the evening of the big 
leak?
    Mr. MacDonald. Oh, no.
    Chairman Tom Davis. This was before this.
    Mr. MacDonald. This was 3 years perhaps in advance of that.
    Chairman Tom Davis. Oh, OK.
    Mr. MacDonald. Construction was still underway. The 
engineer responded, per procedure, to produce some non-
destructive examination of the defect, to get the full scope of 
the defect, and then to submit a repair procedure based on 
those findings. That never happened.
    What appears to have happened is the contractor went away 
and repaired it in an ad hoc manner. That should not have 
happened. That whole series of things that led to that breach 
should not have happened.
    Chairman Tom Davis. Now, is that contractor still with the 
project?
    Mr. MacDonald. Yes. Yes, he is. He is still working on the 
project.
    Chairman Tom Davis. OK. Has he been appropriately 
reprimanded?
    Mr. MacDonald. He has been that. He has also stepped up to 
his responsibility for making the fix.
    Chairman Tom Davis. OK. All right. Those are my--I think 
those are my questions.
    I am going to turn the meeting over to Mr. Lynch--I have to 
catch a plane back to Washington--to chair the meeting.
    I want to thank all of you for being with us. I just want 
to say this. You obviously have a serious responsibility, and 
the media are all over this issue, and the public, and 
everything else. You know, all of us I think have a joint 
responsibility to make this thing work from here on out.
    We will sort out the money downstream. The attorney general 
is going to be looking into that, the IG, and who owes what. 
But the safety of this project has to be a priority over the 
next few months, and the--we can't compromise with that at all. 
I think if you have any other episodes like you had on 
September 15th, I think it is going to seriously jeopardize the 
contractors in terms of future government contracts and the 
like. So everybody understands what is at stake.
    Parsons Brinckerhoff has--and Bechtel have great 
reputations with the government traditionally. We have had a 
couple of things go wrong here, but I just want to tell you how 
serious this is. That this has reverberated not just throughout 
Boston and Massachusetts, but throughout the Federal Government 
as well.
    So let us all work together and just make it work. And I 
appreciate your attentiveness to this.
    Thank you.
    Mr. Lynch.
    Mr. Lynch. Mr. Chairman, I just want to thank you for your 
leadership on this, and I do want to say just one thing before 
you leave--is that what I am looking for here among the 
responsible parties, not necessarily to lay the blame at one 
person's door, but to admit that there was a shared 
responsibility here.
    And how to make this right is to make sure that the people 
who are obviously blameless here, the taxpayer and the people 
who pay the tolls, are held harmless. That is the goal that I 
have, and that is going to require the cooperation of you all 
and all of the contractors and insurers and designers and 
everybody else to step up and do the right thing here.
    So that is--I just didn't want you to think that was 
something I said after the chairman left. But that is my stated 
objection--my stated objective here, and that is what I am 
going to pursue. That is what I am going to pursue, and I know 
the chairman is of like mind. So I just wanted to get that out 
there.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Thank you.
    Mr. Lynch [presiding]. OK. Why don't I pick up right where 
the Chairman left off. Mr. MacDonald, on most job sites that I 
was on over 20 years--and I know it was different on this one--
concrete inspection was usually handled by--a firm would come 
in independently and check the contractor's work, check the 
quality of the concrete, and, you know, the performance 
according to the specs.
    In this case, from reading the documents, apparently you 
had your own field engineers. Is that right? Bechtel had field 
engineers go down and do their own inspection?
    Mr. MacDonald. Yes, we had field engineers do our own 
inspection. I also think, on the concrete testing, we would 
have had a subcontractor perform the inspection.
    Mr. Lynch. Maybe you could explain that division of labor.
    Mr. Sibley. Certainly. As John said, we have a field 
engineer that is assigned to do the quality monitoring of that 
work. First and foremost, the contractor has a quality control 
program. Their engineer would identify the mixed designs that 
they are using, would all be approved submittals before they 
start. They would do a checklist that everything is ready, and 
they would submit that to us for verification as part of the 
assurance step.
    Our field engineer would perform those assurances, also 
sign off on the checklist during the concrete placement. The 
project has a certified laboratory. The laboratory has been 
certified in accordance with ACI and the governing standards. 
We would have a person come onsite, do in-place testing such as 
air content slump, that sort of thing, do some monitoring of 
the actual placement, and then we would break the cylinders, 
and so forth, to verify strength later.
    So it was a double effort of assurance, with our field 
engineer at the point of placement and with the laboratory 
checking the materials. The contractor is quality controlled, 
and they are actually performing the placement and verifying 
they are doing it correctly.
    Mr. Lynch. OK. At some point--so that is--the concrete 
coming out of the truck, if you are pouring it out of a truck, 
is inspected by the contractor. You have somebody there that is 
going to the lab and all of that.
    But after the pour, maybe we could go to--just to kind of 
make sure everybody is following along here--I think it is A1 
or--I think it is the first slide. This is the excavating 
machine for the slurry wall, is that correct?
    Mr. MacDonald. Yes, sir, it is.
    Mr. Lynch. OK. And that clamshell bucket is digging that 
trench in between the soldier piles, is that correct? Is that--
--
    Mr. MacDonald. The soldier piles are not installed at 
this--well, I can't tell if they are installed at this----
    Mr. Lynch. Yes, I can't either, to tell you the truth.
    Mr. MacDonald. Yes.
    Mr. Lynch. In any event, after the pour, after the pour is 
complete, and you wait a certain amount of time for the 
concrete to set up, and then you begin excavation. Whose 
responsibility--was it the contractor or was it Bechtel's 
engineer--to go down and just inspect the face of the wall for 
any voids or inclusions or any defects that were visible to the 
naked eye?
    Obviously, somebody had to have the responsibility for 
going down and checking the work after the excavation.
    Mr. MacDonald. First of all, the excavation takes place 
some time later.
    Mr. Lynch. Right. Much later.
    Mr. MacDonald. So it is much later when that opportunity is 
available to it. It is the contractor's responsibility to check 
his own work under the quality control process that is set up 
for the project. It was our responsibility to assure that work 
by a layer of auditing of the contractor's process to make sure 
that he had accomplished that.
    Mr. Lynch. OK. So it was theirs initially, and then, if I 
am understanding correctly, you followup.
    Mr. MacDonald. Yes.
    Mr. Lynch. You assure that they have done that. OK. And my 
concern is that, 5 years after they poured the section that we 
had the breach in, for 5 years that wasn't the--I mean, what is 
the date on which that section of wall was excavated? That had 
to be 1999 or----
    Mr. MacDonald. If I may, I would like to turn that over to 
Keith to answer. He is more fluent with the facts on the panel.
    Mr. Lynch. Sure.
    Mr. Sibley. You are right with the date of the placement. 
The excavation would have been in mid-2000. I don't have those 
precise dates. I would be happy to get a specific answer and 
provide that for the record at a later time, but I don't have 
the exact date when that was excavated.
    Mr. Lynch. Yes, OK.
    Mr. Sibley. It would have been done in stages. This is 
among the very deepest part of the job. The particular 
excavation that Modern conducted here was working north to 
south, and they worked toward a bulkhead from the adjacent 
contractor to the south. This would have been toward the end of 
their excavation.
    Mr. Lynch. OK.
    Mr. Sibley. But I can get you that date.
    Mr. Lynch. I do have some notes here about--that the 
engineer's report indicated on April 2 that the slurry was 
deficient. Now, that is not the concrete, but that the slurry 
was deficient and did not meet standards, did not meet specs. 
But I assume that it was some time after that you actually did 
excavation, so it was after April 2, 1999. Would that be----
    Mr. MacDonald. Yes, that is correct. The slurry report 
refers to the--I believe it is the----
    Mr. Lynch. The pour date?
    Mr. MacDonald. It is before the pour date actually.
    Mr. Lynch. OK.
    Mr. MacDonald. Shortly before?
    Mr. Sibley. Yes.
    Mr. MacDonald. Yes.
    Mr. Lynch. OK. That is fair enough. I just want to--you 
know, what mystifies me is that it was somebody's job to go 
down there and inspect the face of that slurry wall, not just 
to walk by it but to actually go down and inspect that, the 
entire length of that wall.
    And, you know, we have a list now of 102 spots, 102 problem 
areas on the slurry walls, and there are still 400 panels that 
have yet to be inspected. And a considerable amount of time 
here--5 years went by--and if this hadn't burst, this would all 
be buried, if this panel hadn't been burst. It just--it 
troubles me greatly, the lack of quality assurance and quality 
control on this project with respect to these panels, I have to 
tell you.
    And I am hearing that there are wet patches and there are 
inclusions, and, you know, why don't we--Leah, if you have a 
second, I just want to run through--maybe we can dim the lights 
again. These are some--well, actually, why don't we go to--why 
don't we run through all of them.
    There aren't a whole lot of them, but I am just going to 
note some of--now, the reason I included this is I understand 
this process--this is--they are removing the panel so they can 
get at the wall behind it, right? And this is--this is part of 
the repair project. It looks like September 15, so this would 
have been the major breach.
    The cost must be prohibitive to keep removing those panels 
and going back behind there. I don't know if something can be 
done to reduce the cost of these continual repairs that we are 
doing in these areas, but it is something you ought to think 
about.
    All right. Next slide. Again, that is the waterfall. That 
is--we have seen that already.
    Go ahead. Next, please. This is another shot of the same 
breach that occurred on September 15.
    We can go to the next one, please. I was a little surprised 
at this. This is apparently the method, the temporary patch 
that was used. I understand it is just temporary, so I guess I 
am not as concerned. But driving oak wedges in there to try to 
stop this.
    Go to the next--there is another shot of the oak wedges 
they are using to stop the flow of water. You know, it just 
appears to be a Mickey Mouse situation. I don't know, guys.
    But go ahead. Go with the next one. This is, again, I guess 
there is some grouting going along in the area as well as the 
oak patch, the oak plug, rather.
    Please, again, Leah. And I understand that this is, again, 
a temporary patch. That shows the metal plate going on over the 
wooden form there, which I guess is bolted to the soldier pile. 
But, again, I guess I am not as concerned now that I know it is 
just a temporary patch, and something more permanent is going 
to be put in place.
    The next one, please, Leah. And this just shows that--let 
us see, this is September 21, so this is a week later. This is 
the patch that they just put on, and there is a stream of 
water, and it looks like maybe some of the--some of the 
grouting is actually coming back out.
    Next one, please. This is a void at the base of a soldier 
pile. It, you know, could create tremendous problems.
    Next one, please. These are all different areas here. As I 
am told, that is actually a hammer that--in the middle of the 
picture there, there is a hammer that fell down into the pour. 
And there is a huge void at the bottom, and they explained to 
me that the void is filled with paste and soil that was still 
soft when probed to 16 inches. So these are--these are deep and 
significant inclusions and voids within the slurry wall.
    Next one, please, Leah. This is a--there is not--that is 
actually just to demonstrate. That is a trowel that was placed 
in the wall just to show how soft the material was. This is a 
clay inclusion in the--clay and soil inclusion of unsound 
material, and it states that a 6-inch tool can be inserted to 
its full depth. So that concerns me greatly.
    Next one, please. This is all exposed rebar along the 
slurry wall. No coverage there. This must be the area around 
the Federal Reserve Bank. As I understand, that is the only 
area that has rebar in it. But, again, there is no coverage. It 
is exposed to water, and it concerns me as well.
    Next one, please, Leah. Now, this is the roof joint. This 
is one of the roof joints. Mike Capuano and I actually last 
February did the walkthrough there, and we saw the work going 
on. But I have to tell you, and I know you are going to say 
that, you know, we haven't buttoned it all up yet, but in the 
meantime, you know, we already have the oxidization of a lot of 
these structure members, and I am just very concerned about it.
    Next one, please, Leah. That is the last one.
    I just want to read to you. This is contract language for 
the I-93 mainline tunnel. And it states that--this is a 
technical spec relating to water tightness of slurry walls. It 
states that, ``Slurry walls shall be watertight, defined as 
free of all seeping water leaks. Moist patches shall be 
considered acceptable for slurry wall construction.''
    ``B) Repair of leaks shall be in accordance with Section 
727.915, which says that simple surface patching, or shallow 
injection, shall not be allowed.'' And the contractor--this is 
what gets me. It says, ``The contractor shall inspect for water 
tightness of all slurry walls on a monthly basis, starting 
within 2 weeks after the first exposure of the wall panels 
during excavation.''
    This is what brings me back to April 2 or some time in 
1999, some time thereafter. And starting within 2 weeks--so it 
will be on a monthly basis, starting within 2 weeks and 
continuing until final acceptance. The inspection reports shall 
be submitted to the engineer--I assume that is Bechtel--within 
1 week following inspection.
    So it is not that we missed a couple of opportunities to 
pick this up. It is--you know, if you--if it should be monthly 
for 5 years, we missed 60 opportunities--60 opportunities to 
pick this up under quality control and quality assurance. And 
that troubles me greatly. Somebody just mailed it in on this. 
No one was out there protecting the taxpayers' interest.
    Mr. Tamaro.
    Mr. Tamaro. Yes, sir.
    Mr. Lynch. Could you tell me, now, I was an iron worker for 
about 20 years, did some heavy highway work and bridges, and 
all of that. But you are a lot smarter than I am; I promise 
you.
    The level of water tightness--now, first of all, this 
tunnel, what did we buy here in terms of the U.S. taxpayer and 
the Massachusetts taxpayer? How long is this tunnel supposed to 
be in service? What is a reasonable expectation?
    Mr. Tamaro. It should last 70 to 100 years. It shouldn't be 
a problem.
    Mr. Lynch. OK.
    Mr. Tamaro. With regard to the water tightness, I would 
like to just kind of bifurcate the question.
    Mr. Lynch. Sure.
    Mr. Tamaro. There are two elements in the water tightness. 
One is the wall itself, and it has been my experience that you 
can get these slurry walls very watertight except for 
occasional flaws. And then, during construction, once they are 
exposed, you go back and you fix the flaws. Once they are 
fixed, they should not have running water down the face of the 
wall. That has been my experience on most of the walls I have 
worked on.
    Mr. Lynch. And if I could ask you, the fact that these are 
42 inches thick, that is a fairly thick slurry wall in my 
estimation. I don't know, maybe that is--maybe you are used to 
that, but 42 inches of concrete would seem to be fairly 
impervious to water seepage.
    Mr. Tamaro. It is more a matter of the installation 
procedure rather than the thickness. A very thin, properly 
executed wall can be more watertight than a thicker wall that 
has not been done with the same level of care. So the thickness 
is kind of irrelevant. The concrete is usually, if it is put in 
correctly, it is water tight. And it is only the jointing and 
the construction aspects of it that can really create the leak.
    Mr. Lynch. Well, based on the spec I just read, do you 
believe that these specs have been met on this project based on 
what you have seen down there?
    Mr. Tamaro. The panel E-045 is a clear example that it did 
not meet that specification.
    Mr. Lynch. And what about all of the others where there is 
water coming through and voids and----
    Mr. Tamaro. Panels that contain inclusions of material, 
soil-like material or defective concrete, are just not 
acceptable. They do not meet the specification.
    Mr. Lynch. OK. Let me ask you about--now, if you say the 
reasonable expectations of a life span for this tunnel is 75 to 
100 years. What effect does continual play of water on the 
structural members, whether it be seeping through the slurry 
walls and, acting on soldier piles or inducing some type of 
breach because of the inclusion in the wall, or the roof joint 
that you mentioned could be a lifelong problem in this tunnel, 
what does that have--what effect does that water play on these 
structural members have on the overall life of the tunnel that 
we bought?
    Mr. Tamaro. That was kind of why I bifurcated the question. 
The slurry wall concrete itself should not be significantly 
affected by seepage. The loss of soil from behind the wall can 
be a problem, but the concrete itself should not be 
deteriorated if it is there and it is sound.
    The steel beams should not be affected by corrosion. The 
slurry wall soldier beam should not be affected by corrosion as 
long as--the majority of them is buried in the concrete or 
outside, so, therefore, it is not exposed to oxygen. The inside 
face could corrode, and I have seen most of these eventually 
stabilize themselves with a little bit of build up of rust, and 
you don't have a major corrosion problem with the soldier 
beams.
    The real concern is the roof connection where your whole 
street structure is resting on that connection, and that 
connection is exposed to water that is seeping in through the 
roof wall joint. And that is the critical element. It is not an 
immediate problem; it requires resolution.
    Mr. Lynch. OK. All right. Thank you. I want to turn it over 
to Congressman Capuano for a while.
    Mr. Capuano. Thanks, Mr. Lynch.
    Mr. MacDonald, you had both written and oral testimony. In 
the written testimony--if I remember correctly, it was on page 
11--there was something along the lines of--you are talking 
about the wall panel repairs, and there is a written statement 
here that they will all be repaired at no cost to the public or 
to the project. Do you stand by that written comment?
    Mr. MacDonald. I stand by that statement. Yes, I do.
    Mr. Capuano. OK. And during your oral testimony, if I heard 
you right, and I would like to clarify it, I believe I heard 
you say, in talking about the--because, again, we have two 
different types of leaks. In your written testimony, I don't 
recall that you addressed the roof and wall joints, but I 
believe I--and, again, correct me if I am wrong--I thought I 
heard you in your oral testimony say that when it came to the 
grouting program there will be no cost to the taxpayers. Did I 
hear you correctly?
    Mr. MacDonald. Yes. Yes. I think the grouting--the grouting 
of the roof is--we are still in construction. We are not done. 
And when we are done, we firmly believe that we are going to 
meet the specifications for this--for the roof wall joint. We 
believe it is the responsibility of the contractors to achieve 
that under the specifications that are in there.
    And if I may just comment on the picture that you showed of 
that joint--and I fully agree with Mr. Tamaro that it is 
critical that we don't get corrosion in there, and we are not 
seeing signs of any significant corrosion in these girder beams 
that you see in the roof base. What you saw in that photo was 
algae. It wasn't rust. So I just want to be clear about that.
    Mr. Capuano. Mr. MacDonald, your company--both the 
companies have been involved with the construction, I am sure, 
of many tunnels of different types and different locations and 
different depths, and all around the world is my estimation. 
Have you ever been involved with a tunnnel that didn't have 
leaks?
    Mr. MacDonald. No, sir. All tunnels leak.
    Mr. Capuano. Mr. Tamaro, have you ever been involved with a 
tunnel or any other similar aspect that doesn't have leaks?
    Mr. Tamaro. I have been involved with tunnels that do have 
leaks, and they are processed for collecting water.
    Mr. Capuano. But have you ever had any one that doesn't 
have a leak?
    Mr. Tamaro. Yes. Yes.
    Mr. Capuano. One that is below the water table?
    Mr. Tamaro. Yes.
    Mr. Capuano. Where was that?
    Mr. Tamaro. Puerto Rico, the Minnia Tunnel.
    Mr. Capuano. And there is no leaks in that tunnel today?
    Mr. Tamaro. There are no leaks in the tunnel.
    Mr. Capuano. Good.
    Mr. Tamaro. To my knowledge.
    Mr. Capuano. To my knowledge?
    Mr. Tamaro. To the last of my knowledge.
    Mr. Capuano. All right. Fair answer, because I was under 
the impression that there were no tunnels anywhere that don't 
have leaks. But that is a very interesting comment, because I 
will go check that now, just because you have piqued my 
interest. That is good to me. I mean, that changes some of my 
opinions of tunnel construction.
    I guess I am going to ask all of you the same question I 
have asked before, and I think most of you have addressed it, 
but I am going to ask it again, nonetheless, to be clear. To 
the best of your knowledge as of today, is the tunnel, all of 
the tunnels, are they safe? And to the best of your knowledge 
today, is there any reason not to believe that they will not 
continue to be safe in the future on the presumption that they 
get ordinary and adequate maintenance programs. Mr. Amorello.
    Mr. Amorello. Yes, and no to the second question.
    Mr. Capuano. Mr. MacDonald.
    Mr. MacDonald. Yes, the tunnels are safe. The tunnels will 
continue to be safe long into the next century.
    Mr. Capuano. OK. Mr. Tamaro, I know that you have said 
earlier that you haven't been involved with the tunnel directly 
for the last several months. But as of the last time you knew 
it, was there any reason to think that the tunnel wasn't safe 
then?
    Mr. Tamaro. I found nothing that would make me say that it 
was unsafe.
    Mr. Capuano. Fine. Thank you.
    Mr. Amorello, Mr. Mead, who was up earlier--I know that you 
are working with Mr. Gee and others relative to putting the 
tunnels under a new comparable program to the bridge inspection 
program.
    Mr. Gee was very clear, which I knew before, but he said 
it--publicly stated it here that your agency has been very 
cooperative in trying to come up--since you will be the first 
tunnel in the history of the country, if I understand it 
correctly, to subject itself to this kind of inspection 
process, you are breaking new ground, and he suggests that you 
are being very cooperative in that. And I congratulate you for 
that, and I hope you have great success and lead the way for 
the rest of the country to follow.
    But Mr. Mead here also suggested, with some of the 
questions that are involved relative to the inspections of 
these panels, he clearly suggested that each and every one of 
these panels be subjected to a full inspection. I think Mr. 
Lynch asked earlier--and I am no--I have no clue what is 
involved with inspecting these, but Mr. Lynch suggested--and I 
am sure he is right--that there is visual inspection, there is 
hand inspection, there is sonar inspection, there is--I am sure 
there is all kinds of methods that I have no clue what they are 
all about.
    But Mr. Mead was very clear in stating that he believes 
that each and every one of these sections should be inspected 
to the best of our technical ability. First of all, do you 
agree with him? And, second of all, if you do, is that our plan 
to get this done?
    Mr. Amorello. I think the inspection process that had been 
put in place after the September 15 breach is addressing each 
and every panel and identifying it to date. To correct the 
record, there were seven found yesterday, so it is 109 panels 
that are defective in some fashion. Again, only two with a 
major defect is similar to the September 15, including the 
September 15 breach.
    If I may, I would like to defer that both to Mr. Sibley 
from Bechtel and to Mr. Lewis from the project, in terms of how 
these inspections take place. And then, if I might, Mike 
Swanson who is here is the chief engineer for the department--
for the Authority working on the protocol for the future 
inspections. I think it goes to----
    Mr. Capuano. Fair enough. But I want to make it clear--I am 
not an engineer, I don't want to be an engineer, so speak 
English.
    Mr. Amorello. Let me--if it is--Mr. Sibley and then Mr. 
Lewis, but the inspections that are ongoing now and how it--how 
that is occurring, and then Mr. Swanson, who is looking at the 
protocol--and I think Congressman Lynch, anticipating his 
questions on warranties and how we go out into the future--some 
of the costs that we have budgeted, one of the questions by--
that was asked of the earlier panel, the budget for the 
operation of a metropolitan highway system--that is everything 
inside of 128, the I-93 tunnel system, the Logan connection, 
some--the Viaduct south of the city, the Zacamb Bridge, the 
Kana tunnels, is $76 million; $25 million of that is O&M costs 
associated with just the Interstate 93 tunnels.
    And at some point, when the questions get to that stage, if 
Mr. Swanson could talk about how we anticipate the inspections, 
the cost of the inspections that we built into our budget 
anyway, the logic in the 1997 legislation turning the project 
from the State Highway Department--I wish Chairman Davis was 
here. Taking the project from the State Highway Department, 
transferring it to the Turnpike Authority, was because of our 
expertise in tunnel management and the fact that we have 
resources to maintain these tunnels. Having that, that is why 
we are the authority charged with----
    Mr. Capuano. Fair enough. But I want to make it clear, I 
just asked basically what time it is. I really am not 
interested, because I am not qualified to know how the watch is 
made. You know, I mean, so I just really want to make it as 
simple as you can. All the technical stuff, talk to Mr. Mead. 
But the simple stuff, I am happy to listen to, but I want to 
make that clear.
    Mr. Sibley. Simply, the investigations we are conducting 
since the September breach are twofold. One is we have been 
going through the documentation. When we went back and looked 
at the history of the panel in question, as John identified 
earlier, there are irregularities in the documentation of that 
panel.
    So we did a search through all of our field records for all 
of the panels to see if there were other strings of 
documentation that would indicate troubles, and we put those on 
a specific list of panels to take a close look at.
    Second, then, we have identified--or we have been initiated 
a 100 percent inspection of all panels. There is a section 
where the wall is readily accessible above the tile panels that 
were in some of the photographs. The stainless steel grills are 
up there. We can look through those grills and remove some of 
those grills, and do a 100 percent inspection of all panels.
    We are looking for any indications that may need further 
followup. The team identifies those indications, and then we 
take a senior engineer out, we remove more of the steel in the 
area, make a thorough investigation. If it appears to be 
something worthy of followup, we actually take the tile panel 
off and do a complete review of that panel.
    The photographs that Congressman Lynch went through come 
right out of our reports. Those are panels that the 
investigation has located. Most of these more serious issues 
are in areas that are fairly deep in the project. Both of those 
areas, incidentally, are in areas where there was dewatering 
surrounding it during construction. We are now getting full 
water tables back, so now we have a better chance to see some 
of these issues where water is coming through.
    So it is a two step--documentation, check those 
specifically, visual everything, followup indications, go 
progressively forward. It is a conservative review.
    Mr. Capuano. Since Mr. Mead is still here--Mr. Mead, I 
wouldn't want to call you back, because I know you have had a 
long day already. At some point, I would hope that we could get 
some answers, so maybe at a later point, to tell me whether 
what you just heard and what you may find out in the future 
satisfies the suggestion you made, because, for me, though I 
love you guys dearly, the only guy I really care about is Mr. 
Mead, because he has no vested interest whatsoever in the 
answer, and he is the guy, as far as I am concerned, that has 
to be satisfied.
    And, again, what you just said sounds fine to me. But I 
haven't got a clue. And so I appreciate the answer, and I 
appreciate the brevity, the clarity, the simplicity, but I 
would still hope that at some point you have a lengthy 
discussion with Mr. Mead and his office, so that he can be 
satisfied. Or, if not, to notify us that you are not satisfied.
    I guess for me--you know, I have heard a lot about slurry 
walls. I am not a contractor. I am not a construction guy. I 
haven't had the experience of Mr. Lynch. They get a little 
complicated to me. And, you know, I mean, I think I understand 
it. I am not sure. It sounds--you guys have made it relatively 
simple, I think, but I always try to bring things back to what 
I understand.
    One of the things I understand is basic construction, not a 
lot, but a little bit. And, you know, we have two kinds of 
leaks. You know, you have a hole in the wall, that is a 
problem, you have accepted it, you are fixing it. Whether it is 
temporary--I will be honest, I was a little concerned myself 
when I saw that the way to fix a temporary leak is exactly what 
I would have done, is basically you stuck a cork in it. 
[Laughter.]
    But I guess I will trust you, because I drive through the 
tunnel and I go by that cork, so I hope it holds. And I also 
understand that there is some discussion now as to how to make 
that permanent, and I respect that and I will leave that alone.
    But there is also leaks at the top, and I have been 
educated as to how all of this has happened and how you 
couldn't do it--a different kind of roof because of the width 
limitations on the buildings, and the like, and that you had to 
do a roof basically that, in my mind, is almost inevitable to 
have leaks.
    My house has an overhang. Every house in New England that 
is wisely built has an angled, steeped roof. Nobody in their 
right mind in New England has a flat roof. There are some, but 
those are the people that I think less of than others. 
[Laughter.]
    There is a reason for that. We want rain, we want snow to 
get off and go away, and I understand that. I also understand 
that you couldn't do some of these things, and so within the 
limits you had to come up with a system.
    But I have asked, and the Authority has granted me--I have 
it here, and I have the prop, and all of that--but basically 
asked, well, what is on the top of this roof? Where is this 
water coming from? Not so much the slurry walls. I am talking 
about the so-called low-level leaks, because those are the ones 
that strike me as a bigger concern.
    I mean, you are going to have holes in the walls, you are 
going to fix them, and that is not--everybody--I have heard 
everybody say that is not acceptable, and it is going to get 
fixed. But there is going to be a question on the roof. And the 
reason I say this is because, when I was mayor, we built 
several schools. Every one we built we had to fight with the 
contractors about what was on the roof--how thick the rubber 
was, whether the rocks were this, whether this was this, how 
the drain--every single roof there was an argument.
    So I asked about roofs, and I got a nice little thin piece 
of basic rubber here that is this thick that I am told is 
sitting on top of the cement roof. OK. That sounds neat, 
except, I have to tell you, this thing is pretty flimsy. It 
doesn't strike me that this is even comparable to the roof that 
is sitting on my house.
    So I have to ask: is this sufficient? Is this normal? Is 
this what you have used in other tunnels? And if not, why do we 
get this?
    Mr. Amorello, I guess I will start with you.
    Mr. Amorello. Let me--again, these were decisions made in 
the waterproofing, if I can defer to Bechtel, we will respond 
to that question.
    Mr. MacDonald. Thank you, Mr. Chairman. Before I ask Keith 
to comment on the detail of it, the roof system was the subject 
of a thorough review back in 1990. The systems were evaluated 
with a lot of input from ourselves, section design consultants, 
the suppliers of materials that went into the specifications.
    There was a thorough review of these processes initiated in 
1997 when there were some challenges in getting the 
construction satisfactory during the installation of the roof 
membranes.
    So with that said, Keith, maybe you could fill us in on 
more details.
    Mr. Sibley. I am very tempted to talk about the thing you 
had in your hand or the polyuria sprays or the preapproved 
300's, but I recognize your watch analogy, so we will start 
with----
    Mr. Capuano. Thank you.
    Mr. Sibley [continuing]. With waterproofing functions 
essentially as a liner. The concrete roof is placed on the 
steel roof girders that have been talked about. The roof, 
before we backfill with the material, then it goes up to the 
surface, sometimes 4 feet thick, sometimes 40 feet thick. We 
put down this liner. It is loosely called waterproofing.
    We did have a wide variety of waterproofing materials in 
our early specification. It is a performance specification. The 
supplier is chosen by the contractor. They are to make sure the 
supplier reviews the geometry of the tunnel, how deep it is, 
what kind of water is in the area, the water chemistry, the 
details of the construction, and come up with a material that 
they will certify will perform in a waterproofing function at 
that location at that depth.
    In the 1997 task force, we were recognizing that some of 
these materials apparently weren't robust enough, or had 
sufficient installation problems that we were having to review 
a lot of leaks and waterproofing issues. We were concerned 
about the continued use of those materials.
    Initially, to restrict the marketplace, was not well 
received, but this combined task force involving State 
authorities, Federal Highway, some experts, and ourselves, we 
wound up eliminating a few materials.
    Mr. Capuano. Is this the Waterproofing Task Force or the 
Leak Task Force?
    Mr. Sibley. This is Waterproofing. We are selecting 
waterproofing----
    Mr. Capuano. So before leaks.
    Mr. Sibley [continuing]. Materials. Correct. And we limited 
the number, then, of materials that were allowed to be 
considered under this performance specification. The details 
and requirements of the spec remain the same. The contractor 
chooses the material.
    The manufacturer is required to have a rep onsite while it 
started to train the people, test certified installers, and 
basically to assure that the materials such as the one you had 
in your hand will function at the depth and locations called 
for in the tunnel.
    Mr. Capuano. OK. Am I right to understand that this has a 
5-year warranty? Do you know?
    Mr. Sibley. I don't know, but----
    Mr. Capuano. OK. Let us----
    Mr. Sibley [continuing]. I can check that for you.
    Mr. Capuano. I am pretty sure I am right. It is a 5-year 
warranty. My roof has a 20-year warranty. Why does this only 
have a 5-year warranty? And let us assume everything is done 
perfectly. I have to replace my roof every 20 years, because it 
leaks. Material gets old.
    Let us presume everything is done well. Six years from now 
the warranty is gone. I won't even ask the question what 
happens within the warranty; I don't know how you replace it. 
Six years from now, this is done, the warranty is done, and you 
have another 71 to 94 years left. How do you fix it?
    Mr. Sibley. Morris, do you want to take a stab at that one?
    Mr. Levy. Well, I think there is a slight difference 
between the house and the underground tunnel.
    Mr. Capuano. I hope so.
    Mr. Levy. Yes. I mean, the material in a house is subject 
to a lot of the variations in the temperatures, the variations 
in rainfall, ice, and so forth. The material that you have 
underground, it would not be subject to this. It is just 
staying there, and there is no change to it.
    Mr. Capuano. So, then, theoretically they should be able to 
warrant it for 100 years.
    Mr. Levy. Well, as we said, it should stay for that long, 
but I am not sure about the warranty----
    Mr. Capuano. Do you mean even the material?
    Mr. Levy. I am not sure about the warranty of this 
particular material, and Keith would be----
    Mr. Capuano. Well, I am pretty sure it is 5 years. I mean, 
that is fair enough. Again, I guess I will leave it to people 
who understand construction better than I. I have kind of gone 
to the limits of my understanding.
    But I will tell you that it raises concerns for me, not 
because--I understand the engineering problems about you 
couldn't get wider things, you couldn't extend the roof in a 
different way. I know--I understand that, it makes sense, that 
is life. But I have to tell you, forgetting everything else, 
whoever picked this--and, again, not being a contractor it 
raises questions to me.
    I guess relative to the--who is going to be responsible for 
what--and, again, I am just continuing on the roofing analogy. 
Let us presume everything seems to be done well. To get to 
this--just this, and get it on the roof, somebody has to design 
the tunnel. Somebody has to draft the specs for the material 
that goes in the tunnel.
    Somebody has to select the contractors, choose the process, 
choose the material, choose the supplier, prepare the surface 
because, as I understand it you, can't just throw this on a 
piece of cement, you have to prep it and all that kind of 
stuff, select the adhesive, and then apply the material.
    If I have those right, and if I haven't missed anything, 
you have an architect who designs it, a general contractor, at 
least one subcontractor, maybe several subcontractors, the 
material supplier himself, the manufacturer of the material, 
the manufacturer of the adhesive. Then, you have quality 
control, quality assurance, and then you have the Turnpike 
Authority themselves.
    Maybe I am counting it wrong. Maybe I am missing something. 
But just to get this on, you have eight potential parties who 
have responsibility to get that done. Sometimes I am sure some 
of those would be the same people, so maybe it is a little bit 
less than eight, how are we going to determine who is 
responsible? And the reason I ask this is because, very 
carefully worded, wisely carefully worded, that Bechtel/Parsons 
Brinckerhoff will accept your fair share of responsibility, and 
because--and, again, correct me if I am wrong--all I am aware 
of is a $50 million performance bond, or whatever the term 
might be--insurance.
    Are we going to have to hold everybody liable, all down the 
line? Or is that your job?
    Mr. MacDonald. The liability flows primarily two places. It 
flows to the contractor, and many of those parties that you 
described are subcontractors to that contractor. And some of it 
would potentially flow to us. Correct me if I am wrong on this, 
Morris, but I don't think the section design consultants, for 
the most part, are involved in this.
    Mr. Levy. Not in the choice of the roofing material. But, 
Congressman, I think until today--I am not sure that the water 
is coming from the roof. In other words, there is water at the 
joints, and it could well be that the roofing--that the 
waterproofing is still intact, and that the water is coming 
through the concrete, because the concrete goes up the sides.
    Mr. Capuano. But as I understood the way this was supposed 
to be applied, it is supposed to be applied, what, up a foot--
--
    Mr. Levy. That is correct.
    Mr. Capuano [continuing]. On the soldiers. And, therefore, 
there shouldn't be any water.
    Mr. Levy. The outside wall of concrete is exposed to the 
water. The top of the wall is exposed to the water. And the 
water is coming through the concrete from the top or from the 
side, instead of--that is why we are grouting. We are not 
grouting the waterproofing. We are grouting the----
    Mr. Capuano. Well, one of the reasons I picked this, 
because, again, it is simple for me--and, you know, you get 
into slurry walls, but the same issue applies to slurry walls. 
I mean, you don't just have one guy come in and drop a slurry 
wall in. Somebody has to design it, somebody has go to do this, 
somebody has to pick the slurry.
    I mean, I understand there are different kinds of slurries. 
You have to pick which one you have to do, you have to have it 
inspected, you have 8, 10, 9, 12 people or entities that are 
responsible for any aspect, not just this. Same thing with the 
intelligent transportation system, same thing with the concrete 
selection, same thing with every aspect of it. This was just a 
simple one to me, because it makes sense, something I 
understand.
    And I guess for me, I go through all of this to make sure 
that I am not on the wrong track, that the liability for all of 
these issues, regardless of how they are repaired in the 
future, the liability is going to be a long-term discussion, 
unless what you have said, Mr. MacDonald, is--turns out to be 
accurate, that you will stand up and accept your 
responsibility, whatever that may be.
    And I take you at your word, but I also understand that 
when the time comes this is still going to happen. And when it 
happens, my hope is that each and every one of these people who 
is on this list is going to be held responsible for their 
aspect of it, and that includes you.
    Mr. MacDonald. Congressman, let me respond by again saying, 
yes, we will step up to our obligations under our contract. 
Absolutely. The situation that you described is normal. A 
contractor, section design consultants, a management 
consultant, those are the three principal parties involved in 
this conversation, so it is sort of a normal circumstance.
    The disputes are, unfortunately, a normal circumstance in 
this environment. I, frankly, believe that the issues that you 
are concerned about will show themselves in the near future. I 
don't think it is going to take years to discover potential 
issues that are subject to cost recovery or subject to back 
charges against contractors. For the most part, we are going to 
know that in the near future.
    I think there is a robust process in place now under the 
attorney general's purview. We are committed to work through 
that process. It is a process that has the attributes that we 
have long sought. It is one voice on behalf of the 
Commonwealth, the legislature, the administration, MHD, MTA, a 
fact-based process. So we will fully engage in that process.
    Mr. Capuano. Well, I am going to end with one last thing. 
As I understand it--and correct me if I am wrong--there is 
currently a lawsuit pending relative to notification from 1994 
on some issues relative to the tunnel that--it is kind of 
interesting.
    Even in your written testimony, you suggest that, in 1994, 
Bechtel/Parsons Brinckerhoff was under a contractual constraint 
basically to lie relative to the cost of the tunnel. That is 
what your written testimony says, that you couldn't have public 
commentary--well, I can read it to you.
    Mr. MacDonald. Well, our testimony said that we had an 
obligation to tell our customer what we knew.
    Mr. Capuano. Right.
    Mr. MacDonald. And we did that.
    Mr. Capuano. Maybe you shouldn't lie. You are right. I 
should correct myself that you were constrained to not correct 
a lie publicly given, repeatedly given, by your employer--
namely, the Turnpike Authority, not Mr. Amorello, but one of 
his predecessors.
    The contract prohibited Bechtel/Parsons Brinckerhoff from 
making any unauthorized statements, and that is relating to an 
earlier statement--in 1994, you provided the Governor and State 
officials with total cost estimates of almost $14 billion. I 
have to tell you, if I were a prosecutor, I would not let you 
off the hook because you had a contract that basically said you 
had to let a lie happen. Different issue; others will decide 
that.
    But as I understand it--am I wrong to think that there is a 
lawsuit pending relative to whether you did or did not inform 
State officials on these issues?
    Mr. MacDonald. There is a lawsuit pending on that matter. 
Again, I don't think your characterization of this thing is 
accurate. I don't think that is what the contract says or that 
is what we did. We went through that process in 1994. We 
continued to give our best advice to the Turnpike Authority 
throughout that period of time.
    Mr. Amorello. Could I just interject that in 1994 the State 
Highway Department, then the Department of Public Works, was in 
charge of the project, not the Turnpike Authority.
    Mr. Capuano. Either way, it wasn't you. [Laughter.]
    Mr. Amorello. No. Just in terms of clarification.
    Mr. Capuano. Well, I respect that, Mr. MacDonald, but I 
would suggest--I will tell you that as--well, as a non-
practicing attorney now, that if I were advising you, and I--
you had a client who was telling you, ``Look, we know we are 40 
percent--minimum 40 percent over budget,'' and you know it, and 
your client--in this case the State Highway Department--is 
telling you to shut up, my advice to you would have been to 
walk, because you can see--you can feel the anchor coming 
around your neck.
    Guess what? Here it is. Your client, based on your--again, 
I am not going to--I don't know what the truth is, but based on 
your written testimony, you knew then that your client, the 
Highway Department, was perpetrating a public lie and, one, 
they violated FCC regulations, never mind anything else, that 
you knew was wrong.
    And I think by doing that, even presuming that what you say 
is true, you told the Governor and you told the State 
officials, I still think you have some liability issues on 
that, because you should have walked. You should have walked, 
knowing that your client then was engaged in something immoral 
at the very least, unethical, clearly, and probably illegal.
    Thank you, Mr. MacDonald.
    Mr. Lynch. OK. Thank you.
    Mr. Tamaro, I want to go back to you for a second. How do I 
determine what--the normal amount of water that we should 
expect in this tunnel upon completion?
    Mr. Tamaro. As far as the slurry walls themselves are 
concerned, you should have no water. You should not have 
running water. There will be an occasional seep that requires 
repair.
    Mr. Lynch. All right.
    Mr. Tamaro. The roof joint appears to me beyond what you 
would normally expect. I am going to go a little beyond perhaps 
where I should with a comment with regard to the membrane. From 
what I have seen of the roof, up between the girders, I think 
the membrane is performing on the flat, and the problem is 
exclusive to the turn of the wall and the wall contact.
    I would suspect that the membrane will last the life of the 
structure because of its being protected. I assume, and I don't 
know if you have the proper protection boards and the like, as 
long as it didn't get punctured by whomever was walking around 
on top, the membrane on the horizontal should be satisfactory. 
It is that joint detail and turning up the wall that is really 
the culprit in this problem. And the question is: how does that 
get resolved at this point?
    Mr. Lynch. OK. Let us see. Why don't we talk for a moment 
about what you described, Mr. MacDonald, as being fairly 
normal. In Attorney General Reilly's testimony, he indicated 
there were 134 issues outstanding for claims against the 
project and a total of $400 million in claims.
    Now, I understand that there is always that back and forth, 
and there are claims. But at this late stage of the process and 
the project, is that something that is normal, where a lot of 
contractors have completed their responsibilities and are no 
longer on the project and have been paid and now are going--we 
are trying to resolve these things and doing cost recovery on 
top of that?
    Mr. MacDonald. I would like to separate it a little bit. If 
I understood the attorney general correctly, he indicated there 
was 134 items for cost recovery. To me, that would translate 
into issues that are potentially at our doorstep or at the 
doorstep of the section design consultants.
    With respect to the $400 million in claims from 
construction contractors, this is the pending amount of claims 
from the contractors for their construction work, some that 
have finished and some that are still ongoing, that is going 
through a claims resolution process, a process which is 
directly managed by the MTA.
    I am not aware that--of anyone who has been paid in advance 
of getting an agreement. So I think there is a little 
miscommunication there about paying contractors for claims.
    So this is a significant amount of money. The fact that we 
have some disputes and this project has had a long--a fairly 
long history of disputes with the construction contractors, I 
think is--you know, is kind of within the normal expectation, 
maybe a little more than we would like to see. We would like to 
get it--we would like to get it resolved as quickly as 
possible, so it is not around for a long time to come.
    Mr. Lynch. OK. Mr. Tamaro, now I remember what the question 
was I wanted to ask you. The idea that we have this slurry wall 
that is 42 inches thick, and normally--well, let me put it this 
way. Along the stretch of the--of the Artery Tunnel in front of 
the Federal Reserve Bank, apparently the engineer that was--or 
the engineer representative for the Federal Reserve Bank 
required that reinforcing steel be put--maintained in the 
slurry wall along that stretch in front of the Federal Reserve 
Bank. Am I correct on that?
    Keith Sibley, how about you?
    Mr. Sibley. Originally, several of the slurry walls were 
preliminary designed with reinforcing steel in them. As the 
final dimensions--a real driving dimensional item here is the 
soldier pile. It is 3 feet. When you add the cover, you get a 
3\1/2\ foot wall. That wall thickness is not really required 
for the soil and water to be held back, but that is what is 
required to swallow the pile that is inserted in the trench as 
we build these walls and then carry the roof loads.
    Once we had that much design in place, we realized that we 
did not need to reinforce the walls in many locations. Two 
locations we do have the walls reinforced. It is along the side 
of one financial, and it is along the side of the Federal 
Reserve Bank.
    Those are adjacent to critical buildings. We did review 
this information with their consultants, and they preferred we 
remain with a conservative design to keep that reinforcing 
steel. We had it there. They preferred we not take it out when 
we realized we didn't need it in many other areas. They didn't 
require that we put it there, but they preferred we not take it 
out.
    Mr. Lynch. How much of the rest of the--apart from those 
two spots--one financial and the Federal Reserve Bank--how much 
of the remainder of the Artery Project had preliminary rebar 
design?
    Mr. Sibley. Actually, I do not know the answer to that----
    Mr. Lynch. Take a stab.
    Mr. Sibley [continuing]. From the study----
    Mr. Lancellotti. We pretty much wanted the original 
standard to have the walls reinforced as----
    Mr. Lynch. OK. So it was the norm.
    Mr. Lancellotti. The norm.
    Mr. Lynch. The norm in the preliminary design was to have 
rebar in the slurry walls.
    Mr. Lancellotti. I can't say whether it was the preliminary 
design or the conceptual design. But in the early stages of the 
project, that is the standard we were discussing. As Keith 
pointed out, later on we backed off of that, and only required 
that----
    Mr. Lynch. Can you move up to that mic, sir. All right. Let 
us take that from the top again, please.
    Mr. Lancellotti. During the early stages of the project, we 
did have, as our concept, reinforced slurry walls. Later on, as 
Keith pointed out, as we went into more of the analysis and the 
design, we determined that it was not needed in all locations. 
We kept it in certain locations.
    I think there are a couple of isolated cases beyond Federal 
Reserve Bank where either we had an air rights issue or a heavy 
load issue where we kept the reinforcing in. But generally, we 
took it out because the analysis and design showed it was not 
necessary.
    Mr. Lynch. Now, let me see if I understand you correctly. 
Because the walls were so thick, you didn't think you needed 
reinforcing steel?
    Mr. Lancellotti. Correct. Based on the loads that they 
would absorb or would be imposed on the wall, it was not 
necessary. That is correct.
    Mr. Lynch. OK. Now, as I understand it, concrete is great 
under a compressive load, but the steel is added because of, 
you know, a moment or a lateral load. In this case, it would be 
from the soil and the water on the side of the panel. Is that 
correct?
    Mr. Lancellotti. That is very--you are a good engineer. 
That is absolutely correct. It is usually from tension, either 
from moment--primarily from moment. It is primarily from moment 
or bending.
    Mr. Lynch. So it wouldn't be the case where if we had left 
the steel in, if we had left the steel in--in the slurry 
walls--and I am not sure if there was a whole lot of steel in 
here in terms of, you know, the size of these panels. But if 
you had left the reinforcing rods in the thing as originally 
designed, we might not be--we might not have had that blowout 
problem for one.
    Mr. Lancellotti. Actually, that panel has reinforcing steel 
in it.
    Mr. Lynch. Well, it was placed properly, is what I am 
saying.
    Mr. Lancellotti. And it still blew out, so I would not say 
it is related to the reinforcing steel.
    Mr. Lynch. Yes. Now, was this a cost-saving measure, to 
pull the steel out?
    Mr. Lancellotti. That is correct. It was part of a cost 
containment initiative; that is correct.
    Mr. Lynch. OK. But you left it in for the Federal Reserve 
and----
    Mr. Lancellotti. And some other isolated areas where the 
stresses warranted.
    Mr. Lynch. OK. Let us just go--I want to compare these two 
pieces, because I think it is important. Mr. Tamaro, given the 
dynamic here with this 3\1/2\ foot wall, what is the impact on 
a lateral load like we were just talking about, with no rebar 
in there and--but say there is a substantial inclusion of soil 
or clay or a hammer or brick or just a complete void within 
that panel, what does that do to the structural integrity of 
that panel?
    Mr. Tamaro. It diminishes the integrity. What happens is 
that the reinforcing goes in sort of as a grid.
    Mr. Lynch. Right.
    Mr. Tamaro. And if there is a void, a hole, a defect, there 
are alternative paths around the defect. And in the case of 
this particular panel, there is concrete missing for a 
significant height of the element. So that you have a piece of 
reinforced concrete to the north of the defect, you have a 
piece of overpour concrete to the south, and you have a defect 
between the two.
    Had there been reinforcing and concrete, you would have an 
element expand from beam to beam. What you have in the case of 
E-045 is you have an element sitting out in space with no 
support at the Perini end of the panel.
    Mr. Lynch. I see. OK.
    Mr. Tamaro. So having reinforcing or not having reinforcing 
would be immaterial. If the panel had been constructed to the 
flanges, behind the flanges of both of the soldier beams, and 
there had been reinforcing and there was a hole, there would be 
an alternative path around it, and we wouldn't have the same 
structural concerns that we have for E-045.
    Mr. Lynch. OK.
    Mr. Tamaro. It would have just been a sealing of the leak, 
and that would have made life a little easier.
    Mr. Lynch. Right. Now, let us go to the general situation. 
Mr. Amorello tells me that we have 109 panels now that have 
inclusions, defects, of--you know what? Can we get a definition 
on--I know the No. 1s classified in the report are the severe 
situations like the breach, and there are only two of those.
    What constitutes a moderate or a No. 2 type defect that we 
have in these walls? I guess there are 33 of them? Or actually 
maybe more now.
    Mr. Amorello. They changed with--34 panels with modest 
repair and 73 require patching or a type of repair. I could 
have Mike Lewis, project director, speak to that, or Keith 
Sibley, if it is easier on the mic.
    Mr. Lynch. Yes, either one. Either Mike or Keith, go ahead 
and tell me what a No. 2 involves, and then I have some 
questions for Mr. Tamaro.
    Mr. Sibley. The No. 1 defect, we had two of those, those 
are the breaches. The No. 2 type of defect is something that 
there are indications in some cases of a piece of an end stop 
left, which would indicate that there is not full engagement of 
a pile for a short section.
    There is an inclusion of material between a primary and 
secondary placement; that is, a vein of material. I think Mr. 
Tamaro described just recently how that is important to the 
performance of the panel.
    Mr. Lynch. Could that be clay or sediment or something 
that?
    Mr. Sibley. That is correct.
    Mr. Lynch. OK.
    Mr. Sibley. Some foreign material. Clay is the most 
frequent, where a joint was not fully cleaned off before the 
next one. Sometimes it goes well into the panel; sometimes it 
is toward the surface. Basically, it requires thorough 
investigation. We have been doing this.
    The contractors are starting to hydroblast the material out 
to confirm precisely the dimensions of what we have, and then 
recommend methods of doing proper repairs. In some cases, this 
will be primarily filling with concrete materials. In other 
cases, it may involve structural consideration for the reasons 
that Mr. Tamaro outlined a moment ago.
    The other 73 minor ones are--we think of as patching. These 
go no less--no more than, say, half the depth of the wall and 
involve some reinforcing steel and concrete repair patching, 
typical of concrete structures.
    Mr. Lynch. Didn't that spec say that simple surface 
patching or shallow injection shall not be allowed? Does that 
fly in the face of what you are telling me now, that you are 
going to do minimal patching here?
    Mr. Sibley. Simple surface patching would be like a 
cosmetic repair. What I just described is a structural repair. 
I mentioned similar that you would do in reinforced concrete 
structures--for example, if you were repairing bridge abutment, 
if you were repairing a retaining wall, something of that 
nature, you clean out the surface, you prepare it to receive 
new concrete, bonding agents, etc., or saturation, you dowel in 
appropriate reinforcing steel, and then you cast additional 
concrete on it.
    If it is relatively shallow, it can be done by----
    Mr. Lynch. Is this shot crete? Is that what you are talking 
about now?
    Mr. Sibley. That would be only in relatively shallow 
situations. In deeper situations, the contractor puts up a 
form--there are some of these in progress right now--and casts 
the appropriate material. If it is large, it can use a large 
aggregate. If it is small, you might use, say, a peastone 
concrete, that type of thing.
    Mr. Lynch. Yes. Who is paying for this?
    Mr. Sibley. I think, as John said earlier, the contractors 
are doing these repairs.
    Mr. Lynch. And they are paying for it on their own dime. 
They are not going to come back to the taxpayer to be paid for 
this, right?
    Mr. MacDonald. That is my understanding, sir, and we are 
paying for our inspection services.
    Mr. Lynch. OK. Mr. Tamaro, based on what you have heard, 
that there are voids next to the soldier pile, and there are 
examples that were shown earlier where it looks like sidewalk 
bricks actually. Let me ask you about that.
    They are doing slurry wall construction. They are pumping 
slurry into this open trench that is the form basically for the 
eventual slurry wall. And it appears that in many, many places 
along this slurry wall, for the length of the Artery, that 
there are things dropping in--you know, a hammer, some sidewalk 
bricks, clumps of soil. It appears that there is clay sediment, 
and it is creating these voids or inclusions that have been 
described here.
    Within that panel--within that panel, what does that do to 
the--again, I know you said it diminishes it, but is this a 
serious concern?
    Mr. Tamaro. Can I just go back and tell you how it happens?
    Mr. Lynch. Sure.
    Mr. Tamaro. So that we can develop it from there?
    Mr. Lynch. Sure.
    Mr. Tamaro. These foreign debris come from either an 
inadequate cleaning of a panel initially--at the conclusion, 
when you are all done excavating, you should clean out the 
panel, make certain there is no debris sitting on the bottom, 
or due to the collapse of some material in the fills after the 
concrete process has begun.
    In the event it is a non-cleaning of the bottom, when you 
put the tremmie pipe down to the bottom of the panel, the 
debris is usually lighter than the concrete, and it is expected 
to rise through the panel and be expelled. When you begin to 
see pockets of material, it is indicative that there is a 
potential sidewall collapse during the placement of concrete. 
The material has fallen down.
    When you see the condition of E-045, that is specifically 
attributable to the fact that they had two elements that they 
were trying to concrete, separated by a steel beam, and they 
tried to do it with one tremmie pipe, and what it did was it 
pushed all the trash into that slot.
    Mr. Lynch. Right.
    Mr. Tamaro. And it collected as a vertical defect.
    Mr. Lynch. Right.
    Mr. Tamaro. That is very serious.
    Mr. Lynch. Right.
    Mr. Tamaro. A pocket of material the size of a bag of 
potatoes is not a problem, if you don't have running water 
coming in. You go back, you dig it out, and you fix it.
    Mr. Lynch. Well, we do have water.
    Mr. Tamaro. But E-045 is an extraordinary----
    Mr. Lynch. No, no, no. But, I mean, I have a list here, and 
they haven't done non-destructive testing on this stuff. This 
is just the stuff that is coming up visually. We have 
inclusions, and we know we have water behind the wall here. We 
have wet spots. You know, in my mind, we have all of the 
ingredients for a failure further down the line.
    Mr. Tamaro. If there is sufficient waterflow to erode the 
contaminated material, you have a potential E-045 problem.
    Mr. Lynch. Right.
    Mr. Tamaro. If the leak is observed early on, and it is 
addressed quickly, you can stop the leak from becoming a major 
problem.
    Mr. Lynch. OK. Mr. Mead was in here earlier. Actually, he 
might be still here. He recommended that we do a scan of every 
single panel, in light of the pervasiveness of this problem, 
these inclusions, stuff dropping into the slurry wall. Is that 
something that you would agree with?
    Mr. Tamaro. I don't think it would hurt. It is one more 
piece of information. I think the visual check is the most 
important thing that one can do. The visual check and sounding 
of the surface, banging on it, and the like----
    Mr. Lynch. Really? Even though none of that picked up the 
problem in E-045?
    Mr. Tamaro. I think the problem in E-045 was picked up 
somewhere along the way. There was shot crete applied. There 
was grouting of the leak.
    Mr. Lynch. OK.
    Mr. Tamaro. I think it was picked up.
    Mr. Lynch. OK. All right. Chairman Amorello, I just want to 
ask you--at the beginning of this hearing, we started talking 
about this IPO situation, this integrated project organization 
that so many people have now criticized, but at one point 
apparently it was a popular idea because we--we adopted it. You 
came in 2002, is that right?
    Mr. Amorello. That is correct.
    Mr. Lynch. Now, I know the Leak Task Force or the 
Waterproofing Task Force was 1997.
    Mr. Amorello. Waterproofing.
    Mr. Lynch. OK. And then the Leak Task Force was 1999.
    Mr. Amorello. 2000.
    Mr. Lynch. 2000? And you came in in 2002?
    Mr. Amorello. Correct.
    Mr. Lynch. OK. So you have had a chance, based on the date 
that you brought in in 2002, it is still pretty much--well, 
there are some safeguards, I understand. Why don't I let you 
answer the question.
    What was your experience with this IPO situation? What did 
you do? If you did anything differently, or if you are still 
using the same system, I would like to hear about your opinion.
    Mr. Amorello. When I first came in, being new to it, I 
hired the National Academy of Engineers to come in and make 
recommendations. And a panel came up and had several meetings 
in Massachusetts and in Washington.
    And John Christian, a Massachusetts resident who is now an 
advisor to the Authority chaired that panel of national experts 
from the Academy how to finish the project--their 
recommendation came back. The management team and structure you 
have in place is sufficient to carry you to the end of this 
project, to 2005 being the substantial completion date.
    But I wasn't a fan of the IPO, and I think lessons learned 
from this--the IPO was not the manner to oversee this project. 
The instances that the attorney general will speak of in cost 
recovery, trying to recoup costs back where there is so much 
agreement, the Inspector General has made it clear in many of 
his--in his testimony today and in remarks in the past that we 
somewhat dismantled that organizational structure. The public 
employees report to me and to the chain of command here at the 
Authority, and the Bechtel personnel answer to those overseeing 
them from the public sector.
    I would point out that at any given time in the past on 
this project, Bechtel/Parsons Brinckerhoff I believe had at 
times approximately 1,000 employees of their firms working or 
subcontractors for them.
    Mr. Lynch. Not counting attorneys, right?
    Mr. Amorello. I don't want to characterize--it is the 
number of FTEs at any given time under their work program and 
the subcontractors they had within their work programs. And on 
the State side, I believe at some given point we had 
approximately 50 employees.
    But the IPO, a decision made back in the late 1990's, I am 
not a fan of it, wasn't when I came in, took the National 
Academy's recommendation to finish the project with the 
timeline we had left, manage that, opened roadways, kept the 
schedule, kept to budget, at the same time moving public 
responsibilities on the public side and treating it more like a 
standard relationship between a consultant and the public side.
    Mr. Lynch. OK. Let me ask you, who signs off on--do you 
need to sign off on any payments to Bechtel and other 
contractors?
    Mr. Amorello. Contract modifications come in before--at a 
certain level come into the Turnpike Board for approval. The 
State Highway Department also approves them, because these are 
State highway construction contracts. So there are basically 
two layers of public approval on these contracts. The State 
Highway Department is more of a procedural matter, because the 
project is administered and controlled by the Authority given 
the 1997 legislation.
    Mr. Lynch. OK. Well, to the degree that you have any 
authority to sign off on this, you know, I assume you were here 
for my conversation with Attorney General Reilly.
    Mr. Amorello. Absolutely. And the clarification, in terms 
of holding the contractors responsible for their contracts, and 
to provide a piece of information in regards to cost recovery 
and those efforts seeking recovery to section design 
consultants or Bechtel/Parsons as the joint venture.
    And then, the claims and change progress, which, I think 
Congressman Capuano and yourself have talked about, and the 
chairman was talking about construction claims or changes that 
we have instituted as part of the construction process, those 
are settled with the Authority, and they are not settled as a 
matter of an easy decision that we have our own attorneys and 
our own outside consultant exponent to review the claims filed 
by the contractors, and negotiated settlements where possible.
    If we identify in a claim that we are going to pay, because 
it is a legitimate, fair claim by the contractor to make it, 
but we find that claim was as a result of a design error or 
omission, then we submit that over to cost recovery. And those 
are the items that the attorney general's office will be 
looking at. Those were the items that the Ginsburg team was 
dealing with in their cost recovery program.
    Mr. Lynch. OK. While we are on that subject, on cost 
recovery, I have to ask you--you came into this situation in 
2002, and you know you are stepping into a problem because the 
project is already, I don't know, it is out of sight. It is 
over $10.8 billion--or, no, it has to be close to $14 at that 
point, right?
    Mr. Amorello. When I came in, it was $14.625. And today it 
is----
    Mr. Lynch. That is where it is, OK. So you know we have 
problems, and there are enormous concerns about cost recovery, 
getting some of that money back. And with all due respect to 
the gentlemen at this table, we, as a Commonwealth, and you on 
the Authority, we are in a pitch battle, a legal one, with 
Bechtel/Parsons Brinckerhoff, one of the biggest construction 
firms in the world.
    And in casting about for someone to handle our case and 
recovering moneys for the taxpayer from this huge construction 
company, apparently someone--perhaps yourself included--they 
did a search to come up with someone to quarterback our team 
for cost recovery. And I understand you found a fine gentleman 
to do that.
    However, from my research, it appears he was a probate 
judge, someone dealing with divorce and custody and wills and 
estates, to quarterback our team. And I have no--nothing but 
fine things to say about that gentleman and--but 
professionally, as someone who is responsible for watching out 
for the Commonwealth, for the taxpayer, I have to ask you: how 
did you, in a thorough search, come up with someone who, from 
my own review and research, I can find no clear reason why one 
would--if casting about the best person to represent us in that 
conflict? And it was a conflict, a legal conflict--I just 
cannot understand for the life of me why we made that 
selection. And I just want to--I have to ask you that, because 
it is vexing.
    Mr. Amorello. I certainly appreciate and respect the 
question. Judge Ginsburg is a highly regarded Judge of the 
Commonwealth----
    Mr. Lynch. Absolutely.
    Mr. Amorello [continuing]. Regardless of the----
    Mr. Lynch. An expert in probate law, I might add, and a 
respected one.
    Mr. Amorello. And removing the subject matter of his 
jurisdiction in the courtroom, the credentials of him as an 
intelligent legal mind, an individual of the highest 
integrity----
    Mr. Lynch. Unquestioned.
    Mr. Amorello [continuing]. That heading up a team of 
attorneys--and we are talking about a team of attorneys and 
outside engineering consultants, able to administer the 
program, and as Attorney General Reilly pointed out, you have 
two avenues in cost recovery. You either settle the matters or 
you go to court and litigate them.
    I guess there would be a third one. You could just drop it 
and not pursue it at all. But looking at the reality of the two 
matters, the cost recovery team put into place by me was 
looking to move a process that had, as has been mentioned by 
Ken Mead and others, $35,000 and I believe $770, $35,770 for 
the cost recovery in the prior 10 years of this project.
    Judge Ginsburg and his team secured back $3.8 million in 
settlement moneys, and filed 10 lawsuits, and an 11th lawsuit 
that Congressman Capuano referenced against Bechtel/Parsons 
Brinckerhoff on the grounds of fiduciary responsibilities and 
others.
    The attorney general in his remarks said that those 10 
suits were for--or 8 of those 10 suits, and if--were moving 
forward in the process, and that the 11th suit against Bechtel/
Parsons was--he had stated but did not--dropped it. I think 
that speaks that the cost recovery team instituted by the 
Authority was doing its job, pursuing it.
    When it became a matter of lawsuits only, it was 
appropriate that the chief legal enforcement officer for the 
Commonwealth of Massachusetts, the attorney general, take these 
matters over, and use all of the tools and abilities at his 
disposal that we currently didn't have--don't have as an 
authority, other than through the discovery process in the 
legal cases.
    Mr. Lynch. In fairness, though, the assessment of the 
previous cost recovery team--and I may be wrong, and you are 
completely free to correct me if I am wrong--if I count up what 
we have spent in cost recovery, I come up with approximately 
expenses of approximately $8 billion.
    Mr. Amorello. $8 million.
    Mr. Lynch. I am sorry, $8 million, right. $8 million to 
recover $4 million. So we spent $8 to recover about $4. You 
know, if I am wrong, straighten me out.
    Mr. Amorello. Well, just in terms of when you talk about 
the individual matter of the settlements that were reached with 
Jacobs Engineering and some other firms, the dollars invested 
for those settlements were, I believe--and I stand to be 
corrected on the exact dollar amount, but I believe it was 
about $700,000 to secure back $3.8 million, $4 million in 
settlement.
    The additional moneys expended by the cost recovery team is 
into the establishment of those 10 lawsuits, and I think all of 
us know that the foundation now that the attorney general is 
moving on are those 10 lawsuits and the amount of work put into 
putting a suit before the Supreme Court--the Superior Court of 
Massachusetts is where these dollars that were expended for 
lawyers, for outside engineering consultants, and for the staff 
attorneys that were working on cost recovery.
    Mr. Lynch. I understand. But we are looking at an October 
or November trial date here, and there is still an enormous 
amount of work that needs to be done on these cases based on 
the attorney general's assessment at this point.
    Mr. Amorello. Well, if I may----
    Mr. Lynch. You may.
    Mr. Amorello [continuing]. Congressman, just to point out 
that in the course of this project, in the 10 years of active 
construction, there had been no effort--no meaningful effort in 
terms of cost recovery. Ideally--and I say this with the 
Bechtel/Parsons Brinckerhoff folks, you would like to reach 
settlement and resolve matters in that fashion and not need to 
pursue them in court.
    I respect the fact that the professional relationship 
between the Turnpike Authority and Bechtel/Parsons Brinckerhoff 
has not materially changed in their effort to continue to 
complete this project, while at the same time we filed a 
lawsuit against them and 10 of the section design consultants 
in this course.
    The process was not there prior to that, to the cost 
recovery team that the Authority established. If you can reach 
a settlement--and, again, ideally you want to reach that as the 
attorney general, and hopefully the attorney general will be 
successful in reaching a settlement, but if not, you only have 
the course to go to litigation, and those are the steps that we 
took.
    And at the stage where we were finishing up, the court 
cases had been filed, natural progression to turn it over to 
the attorney general, and his willingness to accept it.
    Mr. Lynch. It is a point well taken. But just two points. 
No. 1, it is usually the quality and the strength of the 
litigation that drives the settlement. It is not the settlement 
that is the driving force, and then it falls to litigation as a 
default measure.
    So it leads me back to my original question, which was--I 
mean, forgive me, but we are in a construction litigation case 
against one of the largest construction companies in the world. 
And we hire a probate judge to handle our case. That is my 
point. I understand the intelligence of the gentleman, his 
intellect unquestioned, a fine human being. It is just I 
question the judgment of that----
    Mr. Amorello. But take the fact--and, again, the two law 
firms that are representing us, and were representing us--
Looney & Grossman is headed by a former----
    Mr. Lynch. Fine law firms, but who is our quarterback on 
this?
    Mr. Amorello. The quarterback was Judge Ginsburg and the 
team, and these two outside law firms, the other one having one 
of the best legal counsels in terms of construction law--Bill 
Zucker--in the country. So we had the right personnel in place, 
and now it is rightly turned over to the attorney general. We 
fully support him in his efforts in the cases that were given 
over to him to manage and administer and move to either 
successful conclusion with settlements or he moves to 
continuing the litigation.
    Mr. Lynch. Well, I wish I shared your faith. It is just a 
troubling development.
    Mr. Amorello. I hear you.
    Mr. Lynch. OK. I will leave it at that. Maybe I should give 
this back to Congressman Capuano, but I have to ask--it sounds, 
you know, across the table here that there is a shared 
assessment that things are going not perfectly, but things are 
moving along in the right direction and that you are--you feel 
that you are on the right path, and that, as Mr. MacDonald 
says, this bridge--this tunnel will serve the citizens of the 
Commonwealth well into the next century.
    If that is really the case--and I am going to ask each of 
you--Mr. Tamaro, you don't have a stake in this question. But 
are you willing to support efforts to hold the taxpayer 
harmless going forward here? That is my principal concern 
here--that long after all of us are gone, and we already see, 
you know, Modern Continental is gone, God bless them--bless 
Marino, but the company is going under, and Mr. Cashman is 
taking over his responsibilities.
    Reliant Insurance, gone. Other entities that might be 
looked to for recourse are also on the ropes, as they say. 
There are some others that are in shaky condition.
    My concern is that in the long term--and I am not saying 5 
years or 10 years, I am saying this is a 75-year or a 100-year 
tunnel, we have a responsibility to the next generation that we 
give them something that it is not a continual drain on their 
resources.
    So I am looking to set up a structure; some have called it 
a warranty. I am not sure that is the correct word for it, but 
close enough--a way of protecting the citizens of the 
Commonwealth going forward, collectively, meaning the Authority 
and whatever resources it can garner and retain for that 
purpose, Bechtel/Parsons Brinckerhoff in the same fashion, the 
subcontractors, the general contractors, the designers, the 
insurance companies, the reinsurance companies, the bond 
companies, everyone.
    But to hold the citizens harmless from--they are blameless 
in this. They are blameless in this, and in fairness they paid 
for a first-rate tunnel, and based on what I see--and there are 
a lot of reasons for it--I don't see a first-rate tunnel. We 
hired a world-class team here, and I don't see a world-class 
product, quite frankly, not yet. We can get there; they are 
salvageable. But we need the commitment of everyone involved.
    And I know there is a lot of personal pride out there as 
managers and as construction professionals. Right across the 
board, right through Bechtel and each of the firms involved 
here, and it goes right down to the workers on the site. Mike 
and I walked there. You know, there is a considerable amount of 
angst among the workers that they are being associated with a 
project that is being criticized roundly.
    And they would like to do everything that they can to work 
themselves out of it. And I would just like to see the same 
commitment from the firms involved here from the top to the 
bottom, because I think it is solvable. But it requires a firm 
and honest and genuine commitment to getting to that end.
    And, you know, I haven't seen it yet. It looks like this 
thing is barreling toward litigation, and I don't think that is 
the best for anyone. And by God, if we get into that, then we 
will all be involved. We will all be involved, and there will 
be no easy way out. It will be take no prisoners from our 
standpoint in the Congress. And there will be ramifications, as 
Chairman Davis said, for those who seek to acquire other 
Federal contracts.
    We are not playing Tiddly Winks here. This is serious 
business. Our obligation is to protect the people that we 
represent, and your obligation is to fulfill your part of the 
bargain. And we can get there if everyone is fully committed.
    I will turn it over to Congressman Capuano.
    Mr. Capuano. Thanks, Mr. Chairman. I guess I only have one 
or two more questions and then just a closing statement from 
me.
    Mr. MacDonald, I apologize for not asking this before, but 
I want to make sure I get the question asked to you. In your 
written testimony, you say that the contract prohibited the 
agency from making any unauthorized statements to the public. 
Are you still under the same contract to not make any 
unauthorized statements to the public?
    Mr. MacDonald. We are, sir, yes.
    Mr. Capuano. But I presume that since you are under oath 
today, the oath that you took at the beginning of this hearing 
supersedes any contractual agreement.
    Mr. MacDonald. Yes, it most certainly does.
    Mr. Capuano. OK.
    Mr. MacDonald. I would also comment that the chairman has 
authorized----
    Mr. Capuano. Fair enough.
    Mr. MacDonald [continuing]. Us to make statements.
    Mr. Capuano. The reason I ask is because I want to make 
sure I ask the question. Though I am hoping--I think I know the 
answer, I want to hear it. Based on your knowledge today, is 
there anything that the general public or that myself or Mr. 
Lynch doesn't know relative to cost, safety, or security, of 
major impact--major import, that we should know?
    Is Mr. Amorello telling us the truth, unlike some of his--
not his predecessors but the predecessors of the other agency, 
predecessors who ran the Big Dig? Are we being told the truth 
today relative to cost, relative to safety and security of the 
tunnel? Again, subject to all of the litigation. I am not 
asking you to point fingers. That will be all worked out. But 
to the best of your knowledge, are we currently being told the 
truth about this project?
    Mr. MacDonald. To the best of my knowledge, I think your 
statements are absolutely right. I think you are being told 
everything there is to know about the project. Mr. Amorello 
is--Chairman Amorello is running one of the most transparent 
agencies in the country right now. You know, everything is on a 
real-time basis. From the time we find a defect in the tunnel 
to when it is disclosed to the public is within days. So I 
think it is an extraordinarily open administration.
    Mr. Capuano. Thank you. That is the answer I was hoping to 
hear, and I am glad I got it.
    I just want to close by thanking you all for coming. We 
have been here close to, give or take, 4 hours now. First of 
all, thank you for staying, and thank you for being open and 
honest. And, you know, thank you for sticking with it.
    Mr. Amorello, I know you have had some good days and some 
bad days on this project. And my hope is that we have more good 
days coming than we have had in the past.
    And, gentlemen, thank you all. Mr. Lynch, thank you for 
inviting me, and I appreciate the opportunity.
    Mr. Lynch. Thank you, Congressman. Just in closing, in a 
similar note, Mr. Amorello, I reviewed the chronology of this, 
and I know you came here in 2002 and that a lot of these 
problems were in full bloom before that point. So I suspect 
that they have laid more blame at your doorstep than you truly 
deserve, and I want to make that--as someone who has looked at 
this from day one to the present day, I just want to make that 
perfectly clear.
    I just want to go back to my friends at Bechtel. Again, you 
understand the mission here and the desire here to find some 
solution, not to lay the blame and the costs at your doorstep, 
but to somehow get your involvement and your commitment to 
indemnifying the taxpayers, so that the costs are borne by the 
responsible parties. And I have no knowledge of the 
proportionate responsibility among the parties. I suspect it is 
widely spread.
    Mr. MacDonald, are you committed to that process that would 
seek to make sure that the construction is completed according 
to the specifications and to the highest expectations of the 
people of the Commonwealth? And also, the Federal taxpayers 
that have contributed here. And are you willing to work with us 
on indemnifying the taxpayer from any unreasonable costs above 
what they should have expected?
    Mr. MacDonald. Congressman, we are committed to giving you 
the quality product that you deserve, and we will continue to 
strive toward that end. With respect to the commercial matters, 
at the closeout of this job, and some of the things that you 
have talked about are similar to some things that were asked by 
the Joint Transportation Committee of the legislature here back 
in December.
    And we are committed on taking those ideas on board. We 
followed up with the co-chair, Chairman Wagner LeDoure. Their 
view at the time, having the AG--State attorney general in 
charge of the program, that was the appropriate process to 
sustain that dialog through. And so we are committed to 
sustaining that dialog through that process.
    Mr. Lynch. But I am looking to find something long term, 
some solution to put in place as this project winds down. You 
may be right, and the project may perform as advertised. 
However, there have been enough events during the course of 
this project, and enough problems that have come to light, that 
lead a prudent person to require some type of assurance.
    Whether you call that a warranty or a--whether a policy can 
be put together, it is an insurable risk, in my estimation, 
given the timeframe for this project and what we know now and 
what we will know especially after May 15 and DeLoitte & Touche 
comes in with their report, which may prompt another hearing, 
by the way.
    But are you willing to look at that type of solution 
collectively with all of the other partes?
    Mr. MacDonald. Again, Mr. Congressman, the answer is we 
will look at that in the context of the overall resolution of 
these issues, and we think that the right place to do that is 
through the process with the State attorney general.
    Mr. Lynch. OK. All right. If that is your answer.
    Do any of you have anything you would like to say in 
closing? I should probably offer you that opportunity.
    Mr. Amorello. Congressman, the commitment on the Turnpike 
Authority to finish this project to the level that the public 
expects us to, it is delivering on the commitments that were 
made when it was initiated back in the mid-1980's in terms of 
improving traffic flow.
    We have done the groundbreaking on the north end parks. We 
are seeing the greening of downtown Boston and improving 
transportation. So the project is living up to the 
expectations. These construction issues that we need to 
resolve, while we have the contractors in place, while Bechtel/
Parsons are here, we will hold them accountable.
    Your suggestion in terms of a warranty, I can assure you 
that the Turnpike Authority will work cooperatively with the 
attorney general, and items that perhaps we project out as 
additional costs that the Authority should not have expected to 
bear on itself as the owner and operator of this tunnel network 
perhaps could be added into discussions in terms of 
settlements, if it is possible with the responsible parties 
from the SDCs and from the joint venture.
    This is an incredible achievement. This highway network, 
despite all of the negative press that has occurred here, it is 
an incredible achievement. The tunnel system under the city of 
Boston is a marvel that we will all take great pride in that we 
are a part of and helped to make it a reality.
    These issues, these hurdles that we need to overcome, we 
will overcome them. I have the confidence in the gentleman to 
my left. I have the conference in the folks sitting behind me 
from the Turnpike Authority, particularly those of us in the 
public sector that want to do the right thing, assure the 
taxpayers and tollpayers that their money was wisely spent and 
that they weren't spent on any additional costs that--for leak 
repairs, or what have you.
    But we will hold all our contractors accountable on our end 
in terms of claims and changes, and we will work cooperatively 
with the attorney general in its efforts at cost recovery, or 
continuing the efforts of cost recovery. But this is--it should 
never be forgotten by any of us in this Commonwealth--an 
incredible project that is going to make a world of difference 
for the future of Boston and New England.
    It has had a great impact for the men and women in the 
building trades for 10 years while construction was going on, a 
rare opportunity of keeping a lot of people that were in a 
business, as you know, that was cyclical and depending on 
cycles. For much of the 1990's, this project kept the city of 
Boston and the region healthy economically, because of the 
spending that went into it.
    And at the end of the day, we will have a first-rate tunnel 
network, a first-rate transportation system, first-rate parks 
on the top, all because of the investment that has been made by 
the national government, by the State government by the 
Turnpike Authority.
    But we have an obligation to you, the Members of Congress, 
to Inspector Mead--I agreed with you earlier when Congressman 
Capuano said the one person he cares about is--if he is still 
behind me somewhere--the Inspector General for the Department 
of Transportation, but also our partners in Federal Highway.
    Administrator Peters has been very supportive of this 
project and efforts, but she is also holding our feet to the 
fire to make sure that the panel replacement that comes in 
meets your expectation and their expectation for longevity, 
durability, constructability, and we will come up with a 
solution with, again, the folks behind me--John Christian, 
Clyde Baker from SDS--to assure the public that no cost was 
incurred.
    And no cost is being--the cost of repair of this panel is 
not a factor for us. The Bechtel folks and the people from 
Modern Continental have stepped up to take responsibility, so 
we are not calculating in any dollar value to say, ``This is 
the fix.'' It will be the best fix that works, with the least 
amount of risk, least amount of impact to our abutters, and 
something that is constructable and durable and will last as 
long as we expect these tunnels to last, and that is 75 years 
or greater.
    Mr. Lynch. Well, thank you. I appreciate that.
    Gentleman.
    Mr. MacDonald. Yes, Mr. Congressman. This has been an 
extraordinarily long game for us, as your management 
consultant. We have been at this for 20 years. The 
controversies that we face today aren't the first controversies 
that we have responded to on this job. These aren't the first 
challenges that we have overcome on this job.
    So we will continue to go forward. We will continue to do 
our best to complete this project as cost effectively and to a 
high standard to deliver the world-class project that you are 
entitled to. We will do that. The challenges today will be 
overcome.
    We have also done that--and, again, as you get to the tail 
of these things, the cost recovery issues tend to take on a 
rather large dimension, and that is what has happened here, and 
it has happened over the past 3 years. It just didn't happen 
this year. It has been an ongoing stress for us, really, since 
the middle of 2001.
    And I am so proud of our people that they have been able to 
stay focused on their job and working with the MTA and the 
Commonwealth of Massachusetts to get this job done. And we will 
continue to do that while we continue to constructively work 
through this dispute.
    Thank you.
    Mr. Lynch. OK. Well, thank you. And I trust that you will 
work with Attorney General Reilly, then, maybe to pursue that 
indemnification of the taxpayers in some shape or form that is 
agreeable to you all?
    Thank you, gentlemen. The hearing is adjourned.
    [Note.--The slide presentation by Hon. Stephen Lynch 
entitled, ``Digging up the Facts: Inspecting the Big Dig and 
the Performance of Federal and State Government in Providing 
Oversight of Federal Funds,'' may be found in committee files.]
    [Whereupon, at 5:55 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
